                                                                             Report No. DODIG-2013-140




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 30, 2013




                     Quality Assurance Assessment
                     of the F-35 Lightning II Program




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Quality Assurance Assessment of the
                                       F-35 Lightning II Program



September 30, 2013

Objective                                              Findings
We performed an evaluation of the F-35 Light-          The F-35 Program did not sufficiently implement or flow down
ning II Program (F-35 Program) by conducting           technical and quality management system requirements to prevent
a series of quality assurance assessments of           the fielding of nonconforming hardware and software. This could
the Joint Program Office, prime contractor, and        adversely affect aircraft performance, reliability, maintainability, and
major subcontractors. We assessed conformity           ultimately program cost. Lockheed Martin Aeronautics Company
to the contractually required Aerospace                (Lockheed Martin) and its subcontractors did not follow disciplined
Standard (AS)9100, “Quality Management                 AS9100 Quality Management System practices, as evidenced by
Systems - Requirements for Aviation, Space             363 findings, which contained 719 issues.
and Defense Organizations,” contractual
quality assurance clauses, and internal quality        The Joint Program Office did not:
assurance processes and procedures for the
                                                          •	 Ensure that Lockheed Martin and its subcontractors
following six contractors:
                                                             were applying rigor to design, manufacturing, and quality
   •	 Lockheed Martin Aeronautics Company,                   assurance processes.
      Fort Worth, Texas (Prime Contractor and
                                                          •	 Flow down critical safety item requirements.
      Aircraft Integrator);
                                                          •	 Ensure that Lockheed Martin flowed down quality assurance
   •	 Northrop Grumman Aerospace Systems,
                                                             and technical requirements to subcontractors.
      El Segundo and Palmdale, California
      (Center Fuselage Integrator);                       •	 Establish an effective quality assurance organization.

   •	 BAE Systems, Samlesbury, United King-               •	 Ensure that the Defense Contract Management Agency
      dom (Aft Fuselage Integrator);                         perform adequate quality assurance oversight.

   •	 L-3 Display Systems, Alpharetta, Georgia         In addition, the Defense Contract Management Agency did not:
      (Panoramic Cockpit Display System);
                                                          •	 Sufficiently perform Government quality assurance oversight
   •	 Honeywell Aerospace, Yeovil, United                    of F-35 contractors.
      Kingdom (On-Board Oxygen Generation
      System); and
                                                       Recommendations
   •	 United Technologies Corporation,  Aero-          The Joint Program Office should:
      space Systems, Fort Worth, Texas,
      and Independence, Ohio (Landing                     •	 Ensure compliance with AS9100 throughout the F-35
      Gear System).                                          supply chain.




Visit us on the web at www.dodig.mil


                                                                             DODIG-2013-140 (Project No. D2012-DT0TAD-0003.000) │ i
                                              Results in Brief
                                              Quality Assurance Assessment of the
                                              F-35 Lightning II Program




  Recommendations Continued

        •	 Ensure that Lockheed Martin approves all design and                            •	 Ensure that Defense Contract Management Agency is
           material review board changes and variances with                                  performing quality assurance oversight commensurate
           Government concurrence.                                                           with product criticality.

        •	 Perform process proofing of all critical processes to                       The Defense Contract Management Agency should:
           include first article inspections.
                                                                                          •	 Provide a comprehensive quality assurance oversight
        •	 Modify its contracts to include a quality escape                        *
                                                                                             plan for Joint Program Office approval to be included in
           clause to ensure the Government does not pay for                                  the memorandum of agreement.
           nonconforming product.
                                                                                          •	 Audit the execution of the quality assurance oversight
        •	 Assess the impacts and risks to all delivered aircraft for                        plan throughout the F-35 supply chain.
           all findings.

        •	 Implement an aviation critical safety item program that                     Management Comments and
           meets the requirements of Public Law and DoD policy,                        Our Response
           which would include flow down of requirements for a
                                                                                       On August 23, 2013, the Joint Program Office and the
           critical safety item program to Lockheed Martin and
                                                                                       Defense Contract Management Agency responded to the
           its subcontractors.
                                                                                       findings and recommendations in the report. The Joint
        •	 Assess the impacts and risks to all delivered aircraft for                  Program Office agreed with eight recommendations,
           critical safety item deficiencies.                                          partially agreed with two, and disagreed with one. The Joint
                                                                                       Program Office stated that it does not have the resources
        •	 Perform technical and quality assurance require-                            to perform process proofing of all critical processes nor
           ment flow down and verification throughout the F-35                         has the responsibility or resources to perform requirement
           supply chain.                                                               flow down verification throughout the F-35 supply chain.
        •	 Establish an independent quality assurance organiza-                        However, we disagree because it is the Joint Program Office’s
           tion, which has the authority and resources to enforce                      responsibility to ensure contractual compliance to prevent
           the AS9100 standard and F-35 product quality.                               nonconformances. It is also the responsibility of the Joint
                                                                                       Program Office to update the contract if the requirements
        •	 Revise the Defense Contract Management Agency                               are deficient.
           memorandum of agreement to include explicit quality
           assurance oversight requirements.                                           It was also our recommendation that Joint Program Office
                                                                                       establish an independent quality assurance organization
  	*	
        A quality escape is nonconforming material that has entered the product,
        supply chain, or proceeded beyond the acceptance process.




ii │ DODIG-2013-140 (Project No. D2012-DT0TAD-0003.000)
                                               FOR OFFICIAL USE ONLY


                               Results in Brief
                               Quality Assurance Assessment of the
                               F-35 Lightning II Program




Management Comments and Our Response Continued

reporting to the Program Manager. The Joint Program Office   Defense Contract Management Agency stated that it would
disagreed stating that the Defense Contract Management       update the memorandum of agreement between the Defense
Agency performs the role of the independent quality          Contract Management Agency and the Joint Program Office,
assurance organization for the F-35. We disagree because     regarding surveillance; however, we disagree and desire
the Defense Contract Management Agency is not                specifics on the level of oversight at contractor facilities.
accountable for program quality assurance goals. An
independent quality assurance organization reporting         The following table identifies recommendations requiring
directly to the Program Manager would ensure that            an additional comment by the Joint Program Office and
performance and reliability objectives are met.              Defense Contract Management Agency. Please see the
                                                             Overall Findings and Recommendations section in the
The Defense Contract Management Agency agreed with one       report for details.
recommendation and partially agreed with the second. The




                                                                          DODIG-2013-140 (Project No. D2012-DT0TAD-0003.000) │ iii
                  Recommendations Table
                                                             Recommendations               No Additional
                                 Management                  Requiring Comment           Comments Required
                    Joint Program Office                  A.3, B.2, C, D, and E.1.b   A.1, A.2, A.4, A.5, B.1, E.1.a
                    Defense Contract Management Agency    E.2.a and b

                  *Please provide comments by October 28, 2013.




iv │ DODIG-2013-140 (Project No. D2012-DT0TAD-0003.000)
                                          INSPECTOR GENERAL
                                         DEPARTMENT OF DEFENSE
                                         4800 MARK CENTER DRIVE
                                      ALEXANDRIA, VIRGINIA 22350-1500



                                                                                            September 30, 2013

MEMORANDUM FOR PROGRAM EXECUTIVE OFFICE JOINT STRIKE FIGHTER
	              DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY

SUBJECT: Quality Assurance Assessment of the F-35 Lightning II Program
	        (Report No. DODIG-2013-140)

The DoD Inspector General (IG) conducted a quality assurance assessment of the F-35 Lightning II
aircraft procured from Lockheed Martin. We conducted the assessment at the Joint Program Office (JPO),
onsite at Lockheed Martin, and at the major subcontractors during FYs 2012 and 2013. Our objective was
to assess quality assurance conformity to regulatory and contractual requirements necessary for
F-35 aircraft production.

Our assessment determined that the F-35 JPO oversight of Lockheed Martin was inadequate and that the
Defense Contract Management Agency (DCMA) oversight of the contractors was ineffective. These issues
may result in nonconforming hardware, less reliable aircraft, and increased cost. Throughout the assessment,
we issued Notices of Concerns to the F-35 JPO to ensure timely corrective action of our findings. It is our
understanding that the JPO has been implementing corrective actions and the DoD IG will perform future
assessments of this critical program.

The draft version of our report made recommendations to the F-35 JPO and DCMA to ensure compliance
with quality management standards throughout the F- 35 supply chain and to assess the impacts and risks
to all delivered aircraft. We considered management comments on the draft from JPO and DCMA.
We request further comments from the JPO on Recommendations A.3, B.2, C, D, and E.1.b and from DCMA on
Recommendations E.2.a and E.2.b. Further comments should be received by October 28, 2013.

DoD Directive 7650.3 requires that recommendations be resolved promptly. If possible, send a .pdf file
containing your comments to alois.dopita@dodig.mil. Copies of your comments must have the actual signature
of the authorizing official for your organization. We are unable to accept the /Signed/ symbol in place of
the actual signature. If you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to our staff. Please direct questions to Mr. Al Dopita at (703) 699-0220 or
alois.dopita@dodig.mil.




	                                                 Randolph R. Stone
	                                                 Deputy Inspector General
	                                                  Policy and Oversight

cc:   Under Secretary of Defense for Acquisition, Technology and Logistics
	     Assistant Secretary of the Air Force (Financial Management and Comptroller)
	     Naval Inspector General
	     Auditor General, Department of the Navy


                                                                                                    DODIG-2013-140 │ v
                  Contents
                  Introduction
                  Objectives_________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                       Quality Trend Data_________________________________________________________________________2
                       Assessment Criteria________________________________________________________________________3
                       Quality Assurance Assessment Process___________________________________________________5
                       Classification and Categorization of Findings____________________________________________6

                  Contractor Assessments
                  Lockheed Martin Aeronautics Company (Prime Contractor)_________________________________8
                  Northrop Grumman ___________________________________________________________________________ 19
                  BAE Systems____________________________________________________________________________________ 27
                  L-3 Display Systems____________________________________________________________________________ 37
                  Honeywell Aerospace _________________________________________________________________________ 44
                  United Technologies Corporation, Aerospace Systems _____________________________________ 49

                  Overall Findings and Recommendations
                  A. Insufficient Rigor in Design, Manufacturing, and Quality Assurance Processes_______ 55
                  B. Critical Safety Item Program Not Implemented__________________________________________ 61
                  C. Requirements Not Flowed Down__________________________________________________________ 63
                  D. Ineffective Quality Assurance Organization ______________________________________________ 65
                  E. Ineffective DCMA Oversight________________________________________________________________ 67

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 73
                  Appendix B. Prior Coverage__________________________________________________________________ 74
                  Appendix C. Notices of Concern and JPO Responses________________________________________ 77
                  Appendix D. F-35 Joint Program Office and Defense Contract
                  Management Agency Comments_____________________________________________________________112

                  Acronyms and Abbreviations_____________________________________________125



vi │ DODIG-2013-140
                                                                                             Introduction




Introduction
Objectives
Our objective was to assess the F-35 Lightning II Program (F-35 Program), Joint
Program Office (JPO), the prime contractor, and major subcontractors conformity
to the contractually required Aerospace Standard (AS)9100, “Quality Management
Systems - Requirements for Aviation, Space and Defense Organizations,” contractual
quality assurance clauses, and internal quality assurance processes and procedures.


Background
The F-35 Program is a joint, multinational acquisition to develop and field an affordable,
next-generation strike fighter aircraft for the Navy, Air Force, Marine Corps, and eight
international partners: the United Kingdom, Italy, the Netherlands, Turkey, Canada,
Australia, Denmark, and Norway.      The F-35 has three variants.      The Conventional
Takeoff and Landing (CTOL), Short Takeoff and Vertical Landing (STOVL), and Carrier-
Suitable Variant (CV).

Lockheed Martin Aeronautics Company (Lockheed Martin) entered system development
and demonstration in October 26, 2001.           Lockheed Martin has two principal
subcontractors/suppliers, Northrop Grumman Aerospace Systems (Northrop Grumman)
and BAE Systems (BAE). Figure 1 shows the breakdown of the manufacturing for major
assemblies between Lockheed Martin and the principal subcontractors. The program
has about 1,300 other suppliers, with production occurring in 47 states and Puerto Rico.
Additionally, production is occurring in more than 600 suppliers in 30 other countries.

Figure 1. Manufacturing Breakdown of F-35 Major Assemblies
Source: Image courtesy of JPO

     •	 Forward Fuselage
     •	 Wings
     •	 Leading Edges
                                                                  •	 Aft Fuselage
                                                                  •	 CV Wing
                                                                     Fold System




                                          •	 Center Fuselage




                                                                                          DODIG-2013-140 │ 1
Introduction



                 According to the Government Accountability Office reports, JPO rebaselined the F-35
                 Program in 2004 following weight and performance problems and rebaselined again in
                 2007 because of additional cost growth and schedule delays. In March 2010, JPO declared
                 that the program exceeded critical cost growth thresholds established by statute—a
                 condition known as a Nunn-McCurdy breach. JPO continued extensive restructuring
                 actions during 2011 and 2012 that added more funding, extended schedules, and further
                 reduced aircraft procurement quantities in the near-term. The quantity of F-35 aircraft
                 to be procured was not changed, but restructured plans deferred the procurement
                 of 410 aircraft until 2017. In March 2012, JPO established a new acquisition program
                 baseline for the F-35 program, which incorporated all program restructuring actions. The
                 March 2012 baseline represented the fourth rebaseline since the program’s inception.

                 According to the latest acquisition strategy, the F-35 Program is one of concurrent
                 development, production, and sustainment with nine separate low-rate initial production
                 (LRIP)1 deliveries. Each LRIP represents an increasing level of maturity as additional
                 system capability is delivered. Each LRIP also represents its own contract that establishes
                 the number of aircraft to be produced and its own acquisition approach. For LRIPs
                 1  through 3, JPO’s acquisition approach was cost-plus incentive/award/fixed fee, but
                 for LRIPs 4 through 9 a fixed-price incentive (firm target) type contract is being used.
                 The contract fee methodologies also differ for the various efforts on each contract with
                 incentive fee for cost and schedule, award fee for timeliness and quality, and fixed fee for
                 diminishing manufacturing sources.

                 Quality Trend Data
                 F-35 Program quality metric data show improvement in scrap, rework, and repair rates and
                 in software and hardware quality action requests per aircraft. However, the Government
                 incurred and will continue to incur a significant cost for these issues, either through the
                 previous cost-plus incentive/award/fixed-fee contracts or via quality incentives on future
                 fixed-price incentive-fee contracts. As of March 2013, metric data showed that there
                 were, on average, 972 quality action requests per aircraft for LRIP 1, 987 for LRIP 2, 926
                 for LRIP 3, and 859 for LRIP 4. Scrap, rework, and repair rates on average per aircraft
                 were 13.82 percent for FY 2012 and 13.11 percent for FY 2013, thus showing only a
                 moderate change towards reducing costs. Although it would be unrealistic to expect first
                 production to be issue free, our contractor assessments indicate that greater emphasis
                 on quality assurance, requirement flow down, and process discipline is necessary, if the
                 Government is to attain lower program costs.

                 	1	
                       LRIP as defined by the Defense Acquisition University is the “effort intended to result in completion of manufacturing
                       development in order to ensure adequate and efficient manufacturing capability and to produce the minimum quantity
                       necessary to provide production or production-representative articles for Initial Operational Test and Evaluation.”




2 │ DODIG-2013-140
                                                                                            Introduction



Assessment Criteria
AS9100 Standard
The F-35 LRIP contracts require that the contractor comply with AS9100. We performed
our assessments to the AS9100C standard because it was the current version at the time
of the assessments, and any defense contractor obtaining certification would be required
to meet that standard.

The AS9100C standard breaks down quality assurance requirements into five
major clauses:

         •	 Quality Management System,

         •	 Management Responsibility,

         •	 Resource Management,

         •	 Product Realization, and

         •	 Measurement, Analysis, and Improvement.

The Quality Management System, Management Responsibility, and Resource
Management clauses require the organization to have a quality assurance management
organization that has all the resources and authority to affect the end-item quality of
the product. In addition, it requires the organization to have a quality assurance manual
and strict controls over all documentation, data, and procedures that affect the quality
of the product. Product Realization covers the activities and processes necessary to
bring a product into existence.

Product realization is broken down further in AS9100 as follows:

         •	 Planning of Product Realization,

         •	 Customer-Related Processes,

         •	 Design and Development,

         •	 Purchasing,

         •	 Production and Service Provision, and

         •	 Control of Monitoring and Measuring Equipment.

Planning of Product Realization requires the organization to develop processes needed
for design and development of product and includes elements such as procedures,
quality assurance records, resource requirements, safety and reliability programs, and



                                                                                        DODIG-2013-140 │ 3
Introduction



                 inspection and test. Design and Development includes requirements that cover planning,
                 inputs, outputs, review, verification, validation, and control of changes as related to
                 design and development. Purchasing requires the organization to ensure that the
                 purchased product conforms to specified purchase requirements and that all products
                 purchased from suppliers are verified against purchase agreement requirements. The
                 Production and Service Provision requires the organization to ensure that production is
                 accomplished under controlled conditions using drawings and specifications, work
                 instructions, production tools and software programs, monitoring and measuring
                 equipment, and evidence that all production and inspection/verification operations have
                 been completed as planned.

                 Measurement, Analysis, and Improvement requires the organization to ensure the
                 product continuously improves. The clause includes customer satisfaction, internal
                 audit, monitoring and measuring processes and product, and control of nonconforming
                 products to ensure continual improvement.


                 Aviation Critical Safety Items Requirements
                 In addition to AS9100, we assessed the JPO and the contractor’s implementation of
                 aviation critical safety items (CSIs) requirements. A CSI is a part, assembly, or support
                 equipment whose failure could cause loss of life, permanent disability or major injury,
                 loss of a system, or significant equipment damage. Special attention should be paid to
                 CSIs to prevent the potential catastrophic or critical consequences of failure. CSIs require
                 special handling, engineering, manufacturing, and inspection documentation to control
                 and ensure safety of flight.

                 Public Law 108-136, Section 802, “Quality control in procurement of aviation CSIs and
                 related services,” requires DoD to prescribe a quality control policy for the procurement
                 of aviation CSIs. Joint Service CSI Instruction, “Management of Aviation Critical Safety
                 Items,” implements the DoD CSI program and establishes the policies, procedures, and
                 responsibilities to manage CSI. The Joint Aeronautical Commanders Group (JACG), “JACG
                 Aviation Critical Safety Item Handbook,” implements the policies in the Joint Service CSI
                 Instruction and describes the technical and quality assurance requirements for a Prime
                 Contractor CSI program.


                 Statutory and Regulatory Requirements
                 Additionally, we assessed the compliance of applicable statutory and regulatory
                 requirements to include requirements in the Federal Acquisition Regulation;




4 │ DODIG-2013-140
                                                                                           Introduction



DoD Instruction 5000.02, “Operation of the Defense Acquisition System,” Enclosure 4; and
DoD 4140.1-R, “ DoD Supply Chain Materiel Management Regulation,” Section C3.6.


Quality Assurance Assessment Process
To evaluate the JPO’s management of the F-35 quality assurance program, we performed
a series of quality assurance assessments of JPO, prime contractor, and major
subcontractors.    We assessed conformity to the contractually required, AS9100,
contractual quality assurance clauses, internal quality assurance processes, and
procedures for the following six contractors:

         •	 Lockheed Martin Aerospace Company, Fort Worth, Texas (Prime Contractor
            and Aircraft Integrator);

         •	 Northrop Grumman Aerospace Systems, El Segundo and Palmdale, California
            (Center Fuselage Integrator);

         •	 BAE, Samlesbury, United Kingdom (Aft Fuselage Integrator);

         •	 L-3 Display Systems (L-3), Alpharetta, Georgia (Panoramic Cockpit
            Display System);

         •	 Honeywell Aerospace (Honeywell), Yeovil, United Kingdom (On-Board Oxygen
            Generation System); and

         •	 United Technologies Corporation, Aerospace Systems (UTAS), Fort Worth,
            Texas and Independence, Ohio (Landing Gear System).

We selected the contractors based on product criticality and risk. For each assessment,
we established teams of engineering and subject matter experts who assessed to the
AS9100C Quality Management System standard.          The subject matter expert teams
consisted of 14 to 18 quality assurance engineers, trained and certified in AS9100, who
had an average of 15 years of quality assurance audit experience. Additionally, at the
Lockheed Martin, Northrop Grumman, and BAE assessments, we included a team that
evaluated the aviation CSI process.

This assessment focused on quality management system compliance. We did not
examine whether financial restitution was granted for nonconformances, variances,
waivers, deviations, etc.




                                                                                       DODIG-2013-140 │ 5
Introduction



                 Notice of Concern
                 At the conclusion of each contractor assessment, we issued a notice of concern (NOC) to
                 the JPO to ensure timely corrective action of each finding. The NOCs included the detailed
                 findings from that location to ensure prompt resolution.


                 Classification and Categorization of Findings
                 We wrote 363 findings that identified a total of 719 issues for the six2 contractor
                 assessments performed. There were multiple issues identified in most of the findings
                 with the majority of issues were violations of the AS9100C Quality Management
                 System standard. For each of the assessments, we classified the findings as major
                 nonconformances, minor nonconformances, or opportunities for improvement (OFIs).
                 Each finding received an additional technical review for accuracy and classification.

                 As defined by the AS9101 standard, a major nonconformance is a nonfulfillment of a
                 requirement that is likely to result in the failure of the quality management system or
                 reduce its ability to ensure controlled processes or compliant products/services. A
                 minor nonconformance is a nonfulfillment of a requirement that is not likely to result in
                 the failure of the quality management system or reduce its ability to ensure controlled
                 processes or compliant products or services. An OFI is an industry best practice where
                 a specific requirement does not exist. This report focuses on the major findings for each
                 respective contractor.

                 The table shows the breakdown of major, minor, and OFI findings for each of the
                 site assessments.

                 Table. Major/Minor/OFI Finding Totals at Each Site*
                                 Location                            Major                       Minor                         OFI
                     Lockheed Martin                                   28                          42                           0
                     Northrop Grumman                                  23                          42                           1
                     BAE                                               36                          44                           2
                     L-3 Communications                                25                          30                           1
                     Honeywell                                         18                          20                           0
                     UTAS                                              17                          34                           0
                     Total                                           147                         212                            4
                     *Findings include those written against JPO and DCMA during the respective assessments.


                 	2	
                       We conducted a pre-assessment visit at Honeywell, Phoenix, Arizona. Although the site was not selected for assessment,
                       we wrote one finding against the Defense Contract Management Agency.




6 │ DODIG-2013-140
                                                                     0
                                                                                 20
                                                                                       40
                                                                                                      60
                                                                                                           80
                                                                                                                 100




                                                                     1
                                              QMS-General - 4.1




                                                                                       32
                                      QMS-Documentation - 4.2
                                                                                                                       No. of Findings




                                                                     1
                                              Management - 5.1




                                                                     0
                                           Customer Focus - 5.2
                                                                                                                                                      overall assessment




                                                                     0
                                              Quality Policy - 5.3




                                                                     0
                                                   Planning - 5.4                            UTAS




                                                                     0
                            Resp/Authority/Communication - 5.5
                                                                                             Honeywell




                                                                         5
                                                                                             BAE Systems
                                      Management Review - 5.6




                                                                     0
                                                                                             Lockheed Martin




                                    Provisions & Resources - 6.1
                                                                                                                                         Figure 2. Categorization of Findings




                                                                                             L-3 Communication
                                                                                             Northrop Grumman




                                                                              13
                                         Human Resources - 6.2




                                                                     0
                                              Infrastructure - 6.3



                                                                     0
                                         Work Environment - 6.4
                                                                                            40




                            Planning of Product Realization - 7.1        4
                               Customer-Related Processes - 7.2
                                                                                                 46




                                    Design & Development - 7.3
                                                                                       34




                                                 Purchasing - 7.4
                                                                                                                 92




                           Production and Service Provision - 7.5
                                                                                        37




                     Monitoring & Measurement Equipment - 7.6
                                                                         2




                                  Measurement & Analysis - 8.1
                                                                             9




                      Monitoring & Measurement Processes - 8.2
                                                                                  16




                         Control of Nonconforming Product - 8.3
                                                                     1




                                            Analysis of Data - 8.4
                                                                             10




                                   Continous Improvement - 8.5
                                                                                  16




                                                      Regulatory
                                                                         4
                                                                                                                                                                                relevant AS9100C clause. Figure 2 provides the breakdown of these findings for the
                                                                                                                                                                                                                     For each of the contractor assessments, we categorized the findings by the




                                                              OFI




DODIG-2013-140 │ 7
                                                                                                                                                                                                                                                                                                  Introduction
Contractor Assessments




                 Contractor Assessments
                 Lockheed Martin Aeronautics Company
                 (Prime Contractor)
                 (Fort Worth, Texas)

                 Lockheed Martin is the prime contractor and lead integrator for the F-35 Program.
                 Lockheed Martin manufactures the forward fuselage and wings and performs final
                 integration and final aircraft verification at the Fort Worth, Texas, facility (Figure 3).

                 Our assessment of Lockheed Martin resulted in 70 findings that identified weaknesses
                 in Lockheed Martin’s implementation of an AS9100 Quality Management System. Many
                 of the issues documented in the findings indicate additional F-35 Program risks that
                 could impact cost, schedule, and performance. We wrote an additional 24 findings
                 against Lockheed Martin stemming from our assessments at its subcontractor sites
                 (7 at L-3 Communications, 5 at Northrop Grumman, 7 at BAE, and 5 at UTAS). Figure 4
                 provides the Lockheed Martin findings by AS9100 clause with the following sections
                 summarizing significant issues documented during the assessment.




                     Figure 3. Lockheed Martin Assembly Line   Source: Image courtesy of Lockheed Martin




8 │ DODIG-2013-140
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 Contractor Assessments



Figure 4. Lockheed Martin Findings
No. of Findings
20
                                                                                                                                                                                                                                                                                                                                                                                                                                              18


                                                                                                                 Minor Findings
15                                                                                                               Major Findings
                                                                                                                 OFI

                                                                                                                                                                                                                                                                                                                   10                                                                                                                                                                                                                                                                                                                                                                                  10
10
                                  8
                                                                                                                                                                                                                                                                                                                                                                                                7


 5                                                                                                                                                                                                                                                                                                                                                                                                                        4
                                                                                                                                                                                   3                                                                                                                                                                                                                                                                                                           3                                                                                                                   3
                                                                                                                                                                                                                                            2
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      1                                                                                                                                          1
              0                                            0                    0                      0                   0                        0                                                           0                                                   0                       0                                                                    0                                                                                                                                                                                                       0                                                                            0                                                             0
 0
       QMS-General - 4.1
                           QMS-Documentation - 4.2
                                                     Management - 5.1




                                                                                                                                                                            Management Review - 5.6
                                                                        Customer Focus - 5.2
                                                                                               Quality Policy - 5.3
                                                                                                                      Planning - 5.4
                                                                                                                                       Resp/Authority/Communication - 5.5


                                                                                                                                                                                                      Provisions & Resources - 6.1
                                                                                                                                                                                                                                     Human Resources - 6.2
                                                                                                                                                                                                                                                             Infrastructure - 6.3
                                                                                                                                                                                                                                                                                    Work Environment - 6.4
                                                                                                                                                                                                                                                                                                             Planning of Product Realization - 7.1
                                                                                                                                                                                                                                                                                                                                                     Customer-Related Processes - 7.2
                                                                                                                                                                                                                                                                                                                                                                                        Design & Development - 7.3
                                                                                                                                                                                                                                                                                                                                                                                                                     Purchasing - 7.4
                                                                                                                                                                                                                                                                                                                                                                                                                                        Production and Service Provision - 7.5
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 Monitoring & Measurement Equipment - 7.6




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      Control of Nonconforming Product - 8.3
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               Analysis of Data - 8.4
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        Continous Improvement - 8.5
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      Regulatory
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Measurement & Analysis - 8.1
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           Monitoring & Measurement Processes - 8.2




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   OFI
Documentation Requirements (4.2)
We wrote several findings regarding documentation control. For example, the material
data system that automatically records the cumulative product excursion time3 of
composites prior to curing requires corrective action.  When products required a
secondary lay-up, the excursion time continued to accumulate in the material data
system, even though the product cured. To preclude the appearance that the materiel
had exceeded its useful life, operators were overriding the automated materiel data
system with manual entries. We could not determine if these manual entries accurately
reflected the actual excursion time of the material. The ability of operators to override
the recorded excursion time data prevents the data record from reflecting whether
the final product conformed to requirements.




	3	
      The excursion time reflects the amount of time available for the operator to use the material, typically for bonding agents.




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         DODIG-2013-140 │ 9
Contractor Assessments



                 Other findings documented similar record control deficiencies including maintenance of
                 flight line security logs and unclear record retention requirements. In addition, several
                 procedures, checklists, and program plans were in use prior to approval and formal
                 release. Lockheed Martin personnel were using unapproved (without engineering and
                 quality assurance approval) procedures for 18 months.  The unapproved procedures
                 were used to control the vacuum hold-down fixtures for both the flexible overhead
                 gantry machining and coordinate measurement machine. In addition, the manufacturing
                 plans for the wing systems and wing structures were labeled as “uncontrolled/for
                 reference only,” although they were used by the planning department to develop the
                 work instruction for aircraft assembly.  Maintaining accurate product records and
                 controlling process documentation is necessary to ensure that the product meets
                 engineering and customer requirements.


                 Human Resources (6.2)
                 Competence, Training, and Awareness (6.2.2).             We found Lockheed Martin’s
                 management had not updated the employee training requirement to reflect actual
                 training needs. The Learning Management System included 80 employees with expired
                 certifications such as ejection seat installation and removal, F-35 egress system safety,
                 and explosives care, handling, and storage.      In addition, employee training plans
                 identified training certifications that were not required for the jobs those employees
                 were performing. In another example, 37 operators were working on flight hardware
                 in a foreign object debris/damage (FOD)-control area without current certifications.
                 A subsequent major finding, noted later in this report (see paragraph 7.5.5), documented
                 that FOD was discovered in FOD-critical and FOD-control areas.         Training ensures
                 operators are cognizant of the latest industry standards and techniques; it also provides
                 increased awareness. The lack of management attention to certification requirements of
                 employees working in aircraft assembly areas places the delivered product at risk.


                 Planning of Product Realization (7.1)
                 We identified several major findings in Lockheed Martin’s Planning of Product
                 Realization. A major finding noted that Lockheed Martin’s shop floor planning contained
                 incorrect verification steps that resulted in verifications either not being completed or
                 unnecessary. For example, the center wing mate assembly work instruction required
                 torque verification for fasteners; however, fasteners involved in this operation did not
                 require torqueing. In another instance, the wing systems installation work instructions
                 required performing two verifications; one for verification of the electrical bond and
                 the other for electrical resistance. A review of drawing requirements and discussions




10 │ DODIG-2013-140
                                                                                  Contractor Assessments



with personnel noted that the operators were not required to perform the electrical
resistance verification, even though it was later determined to be required. Finally, the
wing system installation work instructions identified two different inspection criteria for
electrical bond resistance inspection; however, it did not specify which one applied.

Another major finding noted that manufacturing documentation did not identify an
inspection requirement that would verify that sealing of fasteners on skin installations met
dimensional requirements. Specifically, the drawing specified minimum fillet dimensions
for integral fuel tank sealing; however, the dimensions were only inspected visually and
were not measured. Sealing adds weight to the aircraft and because measurements were
not taken, it is unclear whether this would be accounted for in final system performance.

Planning and procedures in several process areas lacked sufficient detail to provide
adequate work instructions. For example, in the metal machining areas, the procedures
did not identify details regarding part cleaning, setup, and mechanical clamping; and
in the wing assembly area, the fillet sealing tools were not identified in the procedure,
and personnel were using unspecified tools. Also, a specification for the integral fuel
tank sealing had numerous errors in the graphics depicting dimensional identification
along with missing, incomplete, or incorrect dimensional lines.  In the wing box
integration area of the facility, the planning did not detail numerous operations for
skin panel cover closeout.  This lack of precise and accurate work instructions could
result in nonconformances later in processing or after fielding, thus causing schedule
delays and additional program costs.

A major finding noted that Lockheed Martin was not implementing its diminishing
manufacturing sources and materiel shortages (DMSMS) process in accordance
with internal procedures. For example, Lockheed Martin did not always include the
requirement for the delivery of bills of materials in its supplier statement of work (SOW)
and did not always upload subtier supplier bills of materials into its obsolescence-
forecasting tool. This precluded Lockheed Martin from proactively managing DMSMS.
Cost metrics provided by Lockheed Martin indicate that the cost of DMSMS has been
increasing. Proactive management of DMSMS is critical for containing program cost.

Lockheed Martin had not assessed the use of lead-free electronic parts throughout the
F-35 Program as required by its own corporate requirements, “Lockheed Martin
Corporation Lead-Free Control Plan.” Lockheed Martin did not flow down a lead-free
control plan requirement to its suppliers. The use of lead-free electronic parts in critical




                                                                                           DODIG-2013-140 │ 11
Contractor Assessments



                 applications increases the risk to component service life, reliability, airworthiness, and
                 safety because of tin whisker growth.4

                 A final major finding identified that Lockheed Martin did not always define the capability
                 confirmation criteria used for acceptance of aircraft. In some cases, confirmation criteria
                 did not include clearly measurable and verifiable acceptance criteria, or were not traceable
                 to source data necessary to confirm the required capability. As a result, acceptance of
                 F-35 aircraft depends on the judgment of individual subject matter experts without the
                 use of clearly measurable and verifiable acceptance criteria to confirm the capability of
                 the aircraft. Unclear capability confirmation criteria in the configuration and capability
                 description documents can lead to inconsistencies or quality escapes5 during acceptance
                 of LRIP aircraft.

                 Configuration Management (7.1.3).                          Our assessment identified that Lockheed
                 Martin neither adequately provided review or approved of engineering change
                 submittals made by Lockheed Martin’s critical suppliers. Specifically, Lockheed Martin
                 neither approved or disapproved all L-3 major changes nor provided concurrence in
                 classification for all minor changes submitted by L-3 and UTAS. L-3 submitted 8 major
                 engineering change proposals to Lockheed Martin since May 7, 2007, with no evidence
                 of approval or disapproval, and 14 minor changes through engineering change notices
                 during 2011, with no response for “concurrence in classification.” This indicates a
                 breakdown in a basic quality assurance process used to ensure that Lockheed Martin’s
                 systems engineering understand and agree or disagree with supplier product changes.
                 Another major finding noted that Lockheed Martin did not require L-3 to perform
                 configuration status accounting for LRIP 1 through 5 delivered aircraft. Failure to require
                 suppliers to perform configuration status accounting of delivered hardware can result
                 in the inability to provide hardware traceability in support of failure analysis, system
                 upgrades, and supportability of the aircraft. Lockheed Martin’s configuration management
                 processes did not define configuration management board membership and authorities.
                 In addition, the configuration management plan, imposed on BAE by Lockheed Martin,
                 had invalid references and processes for BAE to follow.


                 Design and Development (7.3)
                 Design and Development Planning (7.3.1). A major finding identified that Lockheed
                 Martin was delivering F-35 aircraft that did not meet required interchangeability-

                 	4	
                     A phenomenon known as “tin whiskers” becomes a factor due to the absence of lead in tin-bearing solder and component
                     finishes. Tin whiskers can cause electrical shorts resulting in system failures.
                 	5	
                     A quality escape is nonconforming material that has entered the product, supply chain, or proceeded beyond the
                     acceptance process.




12 │ DODIG-2013-140
                                                                                 Contractor Assessments



replaceability contract requirements dating back to 2001. This deficiency was identified
in May 2009 by the Defense Contract Management Agency (DCMA). Lockheed Martin
identified this as a high-risk item and developed a 35-step plan for mitigation; however,
final mitigation is not expected to be complete until 2015. The interchangeability-
replaceability plan was to validate through demonstration 277 interchangeability-
replaceability components that were primarily comprised of aircraft skin assemblies. At
the time of our assessment, 273 demonstrations were still required and it was estimated
that 150 aircraft would be fielded before completing the plan. This will inevitably
create fielded aircraft components that are not interchangeable or additional cost to the
Government for bringing fielded aircraft up to specification.

A software safety engineer was not assigned to the software development integrated
product team (IPT), as required by the Software Development Plan, to ensure that
software meets all safety requirements. Without adequate product evaluation of mission
system software, Lockheed Martin cannot ensure aircraft safety requirements are met.

Lockheed Martin’s Mission Systems Software Development Plan did not address all the
requirements of failure mode testing specified in the Air Systems Software Development
Plan. Additionally, the Test Readiness Review for air system software block 2A did not
contain exit criteria, as required by the Systems Engineering Plan. If requirements are
not specified in the program plans, and technical reviews do not contain exit criteria, the
aircraft design may not meet all program requirements.

Lockheed Martin was not providing adequate management of the development efforts at
critical suppliers. Multiple findings were written regarding Lockheed Martin’s failure to
flow down development planning requirements. During the UTAS assessment, we found
that Lockheed Martin flowed down the F-35 Brake/Skid Control System performance-
based specification with incomplete and conflicting specification requirements and did
not flow down required safety and mission-critical function information. Additionally,
Lockheed Martin provided incomplete, conflicting, and ambiguous system requirements
in the Panoramic Cockpit Display performance specification to L-3.

During the Northrop Grumman assessment, we identified that Lockheed Martin did not
maintain mission systems requirements traceability to the software-level requirements.
Specifically, the requirements were not derived from or traceable to the allocated
software requirements and the top-level system requirements. Untraceable requirements
cannot be verified for impact on system performance. In addition, Lockheed Martin did
not maintain the air system block plan to reflect current capabilities planned for the
F-35 Program software blocks. The plan had not been updated since August 2008 and did




                                                                                          DODIG-2013-140 │ 13
Contractor Assessments



                 not reflect current block planning, which would define air system capabilities. As a result,
                 there is no authoritative document defining current and planned software capabilities.
                 Without a current air systems block plan, software program capabilities may not be
                 implemented when required.

                 During the BAE assessment, we identified that Lockheed Martin was not ensuring that BAE
                 was working to the current revision of the software development plan for the F-35 mission
                 systems software. Software products developed by BAE using outdated mission systems
                 requirements may not contain current development processes and acceptance criteria.
                 In addition, several of the F-35 subsystem, software development plans did not include
                 software maintenance, even though the software was already in the maintenance phase.

                 For some critical design reviews (CDRs), Lockheed Martin did not establish or require
                 exit criteria. Additionally, Lockheed Martin did not formally close all design review action
                 items and did not disposition or approve the UTAS failure modes, effects, and criticality
                 analysis (FMECA) reports for the main and nose landing gear.

                 The lack of part interchangeability, insufficient requirement flow down, and open design
                 review action items, as well as failing to evaluate and approve or disapprove engineering
                 deliverables represent product instability and risk.


                 Purchasing (7.4)
                 Our assessment documented several findings citing inadequacies in Lockheed Martin’s
                 oversight of its suppliers and management of subcontractor deliverables. For example,
                 a major finding noted that Lockheed Martin did not manage subcontractor deliverables
                 in accordance with the approved process. Many of the deliverables identified in the
                 subcontract SOW and associated subcontractor deliverable requirements lists had not
                 been delivered or were delivered more than 2 years late without follow-up by Lockheed
                 Martin. Several of these deliverables; such as the software development plan, configuration
                 management process plan, manufacturing plan, electronic bill of materials, advanced
                 quality assurance plan, and acceptance test plan; still require concurrence or approval
                 by Lockheed Martin. Additionally, the data management system for tracking the status of
                 supplier deliverables contained inconsistent information with requirements contained in
                 the subcontract deliverable requirements lists.

                 Several other findings noted inconsistencies in the supplier management and control
                 process. For example, Lockheed Martin did not always conduct supplier evaluations as
                 required. Additionally, the evaluation process for software suppliers did not adequately
                 identify requirements for supplier approval and control, such as a detailed supplier



14 │ DODIG-2013-140
                                                                                                                 Contractor Assessments



approval process, detailed oversight strategy, supplier risk levels, and the periodicity for
supplier selection audits or in-process supplier audits. These evaluations are a primary
input into the supplier rating program. In another finding, several suppliers were issued
corrective action requests; however, these suppliers were delinquent in responding to
the requests and Lockheed Martin did not follow-up to determine the status. Lockheed
Martin cannot ensure suppliers are meeting program requirements without a robust
supplier management system.


Production and Service Provisions (7.5)
Control of Production and Service Provision (7.5.1). Lockheed Martin was not
following established procedures to maintain production control. For example, several
mechanics were violating procedures by not wearing gloves while installing the fasteners
for the wing close-up operation. These particular fasteners have a chemical film dry lube
coating on the threads and require gloves to avoid contamination during installation. In
addition, an operator performing the nutplate push test for the CTOL wing was not pushing
the required amount of time at each test point resulting in uncertainty that proper epoxy
adhesion was obtained.

Two findings documented a lack of adherence to procedures regarding rework and repair
documentation. Lockheed Martin performed rework on the Rear Spar Brackets without
issuing a quality assurance report. Another finding identified undocumented damage to
the aluminum shims of an aircraft assembly. Assembly personnel notified the supervisor
of the approximate 3x12 inch damaged area to the aluminum shims; however, they
did not write a nonconformance report in compliance with Lockheed Martin process.
Nonconforming product should be identified and dispositioned by the appropriate
engineering expertise to ensure sufficient repair and eliminate future occurrences. As a
result, a serious quality escape could occur, affecting reliability or safety of flight.

Production Process Verification (7.5.1.1).                            Several First Article Inspection (FAI)6
findings were documented against Lockheed Martin. The purpose of FAI is to obtain a
representative production sample and ensure that all key design characteristics have
been achieved, critical processes are controlled, and unit-to-unit repeatability is attained.

A major finding documented several deficiencies with Lockheed Martin’s application of
the FAI process. Specifically, Lockheed Martin applied AS9102 guideline requirements
inconsistently. AS9102 establishes the requirements for performing and documenting

	6	
      AS9102 defines FAI as, “A complete, independent, and documented physical and functional inspection process to verify
      that prescribed production methods have produced an acceptable item as specified by engineering drawings, planning,
      purchase order, engineering specifications, and/or other applicable design documents.”




                                                                                                                             DODIG-2013-140 │ 15
Contractor Assessments



                 FAIs. Lockheed Martin imposed this standard on all suppliers of F-35 critical assemblies;
                 however, it did not require conformance to AS9102 on a product fabricated within its own
                 facility. In addition, Lockheed Martin’s FAI process focused primarily on a 100‑percent
                 inspection of products that met engineering requirements and did not include verification
                 of process stability and personnel proficiency. These tenets are required by AS9102, on
                 which Lockheed Martin based its FAI plan. Finally, AS9102 does not exclude assemblies
                 from FAIs, but Lockheed Martin excluded FAIs on major assemblies such as the wings,
                 tail, forward, center, and aft fuselage sections of the aircraft. Many process changes
                 at Lockheed Martin were occurring in the major assembly areas and involved moving
                 tooling and equipment to perform out-of-station work. According to AS9102, changes
                 in manufacturing processes, location of manufacture, tooling, or materials provide the
                 rationale for performing or reperforming full or partial FAIs. Overall, Lockheed Martin’s
                 FAI process was ineffective, as evidenced by the numerous planning, tooling, and
                 training deficiencies documented.

                 We found that Lockheed Martin flowed down conflicting FAI requirements to BAE and
                 Northrop Grumman. Specifically, the contractually imposed AS9102 standard requires
                 that FAIs be performed on all components, including assemblies. However, Lockheed
                 Martin’s FAI plan exempts many of the major assemblies and subassemblies from FAIs.
                 This conflict resulted in many items not receiving FAIs. Additionally at L-3, Lockheed
                 Martin had approved variances for L-3 to ship display units and electronics units to
                 Lockheed Martin without completing FAIs; another indicator of Lockheed Martin’s
                 disregard for the FAI process.

                 Failure to adequately perform FAIs could impact the F-35 Program’s ability to achieve
                 process stability and successfully meet program global production rate goals. The lack
                 of process stability will increase costs and schedule because of discrepant hardware and
                 quality escapes.

                 Control of Production Equipment, Tools, and Software Programs (7.5.1.3). The
                 assessment identified a major deficiency with documenting the control of manufacturing
                 tooling used on the F-35 Program. Lockheed Martin personnel were using discrepant
                 sealant mixing equipment for production. Without engineering approval or analysis,
                 Lockheed Martin personnel were mixing the sealant (for the skin installation of the
                 left aft wingbox) at twice the required time to compensate for the discrepant machine.
                 Furthermore, the compensation time used was incorrect, thus resulting in possible over
                 mixing of the sealant. Other findings noted that additional equipment was not maintained,
                 including the vacuum system equipment used for composite machining operations,
                 another sealant mixer, and software for computer numerically controlled machines.



16 │ DODIG-2013-140
                                                                                 Contractor Assessments



Preservation of Product (7.5.5). We documented major findings related to control
of FOD and shelf-life material. For instance, controls were inadequate to prevent FOD
from being introduced onto the production floor. A DoD Office of Inspector General
(OIG) walkthrough identified FOD within FOD-critical areas located in the final assembly
production area and flight line run stations. Examples include metal shavings found
throughout the left air intake of the aircraft, leaking fluid from a bagged hydraulic line,
and a paper tag below the aircraft. FOD was also identified in FOD-control areas located
in the electronic mate, alignment system, and final assembly production areas. Examples
include metal shavings found in the cockpit of the aircraft; and metal fasteners, wood
fibers, and miscellaneous tools and debris throughout the production area. Another
major finding documented several incidents where wiring harness protective connector
caps were missing. The caps are designed to prevent both FOD and electrostatic damage
to aircraft components and circuitry during manufacturing.

We found expired composite material and a process lay-up kit with improperly identified
shelf life and excursion times. These items were not impounded to prevent unintended
use. Failure to properly identify and maintain traceability of shelf-life material may lead
to use of material that does not meet specifications, potentially resulting in degraded
material performance and failure.


Control of Nonconforming Product (8.3)
Airframes measured using the laser alignment system routinely did not meet mate
and alignment drawing requirements; however, Lockheed Martin did not identify that
the airframes were discrepant. Numerous airframes for all three aircraft variants have
been integrated into end-item flight hardware and processed through final assembly
but Lockheed Martin did not identify and disposition the nonconformances. Two other
findings identified three separate instances when “Open” nonconformances were not
identified and subsequently removed in accordance with procedures. The effective
identification, review, and disposition of nonconforming product is essential to prevent
processing of defective hardware into the aircraft.


Improvement (8.5)
Corrective Action (8.5.2). We wrote several findings regarding Lockheed Martin’s
corrective action process. At the L-3 assessment, Lockheed Martin approved variances
that waived performance requirements for the electronics and display units.            The
variances did not contain documented corrective actions that would prevent the need for
repeated variance requests. There were 17 performance variances on the display unit




                                                                                          DODIG-2013-140 │ 17
Contractor Assessments



                 and 8 performance variances on the electronic unit. L-3 continues to produce and deliver
                 electronics and display units with performance issues under these variances.

                 At the Northrop Grumman assessment, the software tool (Eagle Speed) that Lockheed
                 Martin provided to Northrop Grumman did not include identification and recording of
                 software nonconformance root cause as required in the F-35 mission systems software
                 development plan. This tool tracks and manages mission systems software problem
                 anomaly and software problem reports. Without identification of the root cause of
                 software problems, Lockheed Martin cannot conduct effective corrective action to
                 address software deficiencies.


                 Joint Program Office Oversight of Lockheed Martin
                 The CSI findings documented at Lockheed Martin, Northrop Grumman, and BAE Systems
                 indicate that JPO had not established a CSI program for the F-35 Program.

                 JPO had not flowed down a contractual requirement to Lockheed Martin (and
                 subsequently, its subtier suppliers) to implement a CSI management program in
                 accordance with Public Law and DoD Policy. CSIs require special handling, engineering,
                 manufacturing, and inspection documentation to control and ensure safety of flight.
                 Without a CSI program, there is an increased safety risk to the aircraft and warfighter.

                 Another major finding noted that JPO had not funded Lockheed Martin to create a
                 DMSMS process and had not developed a DMSMS Program Management Plan; causing a
                 significant cost risk to the program. However, according JPO, JPO was in the process of
                 funding a DMSMS program.

                 We also identified that JPO did not establish definitive exit criteria for the block
                 2A Air System Test Readiness Review, reducing the probability that the system is ready
                 to proceed into formal test. JPO systems engineering and risk management plans
                 require contractors to continuously assess the F-35 Program risks. However, JPO was not
                 reviewing and documenting program risks during the Program Management Advisory
                 Board meetings or the risk-level management reviews. Without active participation
                 in systems engineering, risk management, and lifecycle logistics planning for the
                 F-35 Program, JPO cannot ensure that all program requirements will be met.


                 Lockheed Martin Assessment Summary
                 Our assessment of Lockheed Martin’s quality management system, processes and
                 procedures indicated a lack of discipline in complying with AS9100 requirements. This
                 will result in nonconforming hardware, less reliable aircraft, and increased cost.



18 │ DODIG-2013-140
                                                                                          Contractor Assessments



Manufacturing planning and process qualification were not at the level commensurate
with current and planned production levels.          In general, documentation contained
inaccurate and incorrect verification steps and lacked sufficient detail to provide
adequate work instructions. This indicates that processes remain immature and that
assembly instructions require immediate updating.

Lockheed Martin’s management of requirements; including those flowed down to
suppliers in the areas of design, configuration management, software, and FAI; were not
always clearly defined, approved, maintained, and verified for compliance. In addition, the
requirements provided conflicting direction. Without clear and accurate requirements,
Lockheed Martin cannot ensure that flight hardware meets F-35 Program requirements.

Finally, Lockheed Martin was not committed to FOD control. Workers were in the
assembly areas with expired FOD certification, and discipline was generally lacking in
FOD-control and FOD-critical areas. The inspection team noted substantial FOD in
and around the aircraft; these FOD deficiencies continued even after Lockheed Martin
management shut down the line twice to correct noted deficiencies during the OIG
assessment. An ineffective FOD program can result in damage to F-35 aircraft and is a
safety flight issue.


Northrop Grumman
(El Segundo and Palmdale, California)

Northrop Grumman is one
of Lockheed Martin’s princi-
pal subcontractors. Northrop
Grumman manufactures the
center fuselage and weapons
bay doors of the aircraft.
The    manufacturing     opera-
tions are divided between
two manufacturing facilities:
                                    Figure 5. F-35 Center Fuselage at the Palmdale, CA,
El Segundo and Palmdale,            Manufacturing Facility
California.    The engineering      Source: Photo courtesy of Northrop Grumman

team    is    located   at   the
El Segundo facility. That facility also produces the composite skins and weapons bay
doors. The Palmdale facility develops and integrates the center fuselage component;
including the tail cap antenna, composite panels and covers, in-flight operable doors,




                                                                                                 DODIG-2013-140 │ 19
Contractor Assessments



                 arresting gear system, weapons bay door drive system, fire protection system, and
                 multiple mission systems provided by its suppliers. Figure 5 shows the center fuselage
                 on the integrated assembly line at the Palmdale facility.

                 Our assessment of Northrop Grumman resulted in 66 findings that identified deficiencies
                 in Northrop Grumman’s implementation of the AS9100 Quality Management System.
                 As part of our assessment of Northrop Grumman, we wrote several findings regarding
                 the effectiveness of Lockheed Martin requirements flow down to suppliers. Figure 6
                 provides the Northrop Grumman findings by AS9100 clause with the following sections
                 summarizing significant issues documented during the assessment.

                 Figure 6. Northrop Grumman Findings

                 No. of Findings
                 25
                                                                                                                                                                                                                                                                                                                                                                                                                                                                 23



                  20                                                                                                                Minor Findings
                                                                                                                                    Major Findings
                                                                                                                                    OFI
                  15


                  10
                                                                                                                                                                                                                                                                                                                                            7
                                                                                                                                                                                                                                                                                                                                                                                                                                             6
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                5                                                                         5
                      5                               4                                                                                                                                                                                                        4                                                                                                                                                   4
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   3
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     2
                                                                             1                                                                                                                                                                                                                                                                                                    1                                                                                                                                                                                                                                                                                                                                                   1
                                0                                                                 0                      0                   0                       0                                0                           0                                                   0                       0                                                                                                                                                                                                                                         0                                                                                                               0                                                   0
                      0
                          QMS-General - 4.1
                                              QMS-Documentation - 4.2
                                                                        Management - 5.1




                                                                                                                                                          Resp/Authority/Communication - 5.5
                                                                                                                                                                                               Management Review - 5.6
                                                                                                                                                                                                                         Provisions & Resources - 6.1




                                                                                                                                                                                                                                                                                                       Work Environment - 6.4
                                                                                           Customer Focus - 5.2
                                                                                                                  Quality Policy - 5.3
                                                                                                                                         Planning - 5.4




                                                                                                                                                                                                                                                        Human Resources - 6.2
                                                                                                                                                                                                                                                                                Infrastructure - 6.3


                                                                                                                                                                                                                                                                                                                                Planning of Product Realization - 7.1
                                                                                                                                                                                                                                                                                                                                                                        Customer-Related Processes - 7.2
                                                                                                                                                                                                                                                                                                                                                                                                           Design & Development - 7.3
                                                                                                                                                                                                                                                                                                                                                                                                                                        Purchasing - 7.4
                                                                                                                                                                                                                                                                                                                                                                                                                                                           Production and Service Provision - 7.5
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    Monitoring & Measurement Equipment - 7.6




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           Continous Improvement - 8.5
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               Measurement & Analysis - 8.1
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Monitoring & Measurement Processes - 8.2
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Control of Nonconforming Product - 8.3
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  Analysis of Data - 8.4


                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Regulatory
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      OFI




20 │ DODIG-2013-140
                                                                                  Contractor Assessments



Planning of Product Realization (7.1)
Our assessment documented several deficiencies in the area of Product Planning and
Realization. We noted that the temperature and relative humidity parameters in the
automated paint system were not programmed to required specifications, and operators
changed the parameter limits without management approval. In two other instances, the
required torque value was not included in the process work instructions. Specifically,
the torque paint application and special hole finish verification were not included in the
process work instructions. A third finding documented a similar deficiency with adhesive
application and cure times. We could not determine if these required parameters had
been met or verified. Product reliability and repeatability relies on explicit process work
instructions, and Northrop Grumman needs to assess the risk to and impact on delivered
hardware resulting from these deficiencies.


Customer-Related Processes (7.2)
Customer Communication (7.2.3). Northrop Grumman did not provide DCMA with
adequate access to Northrop Grumman command media or other enterprise systems
to effectively administer its delegated contract oversight functions. Specifically, DCMA
Palmdale requires access to corrective and preventative action databases, internal audits,
metrics, policies, processes, and procedures.

The lack of access to program information prevented DCMA from effectively
administering Northrop Grumman Palmdale contracts as required by the Federal
Acquisition Regulation/Defense Federal Acquisition Regulation Supplement and
monitoring JPO’s expectations for cost, schedule, and performance.


Design and Development (7.3)
Design and Development Planning (7.3.1). We documented deficiencies with the
software development processes for engineering software releases. Northrop Grumman
released five engineering software versions of the mission systems software to Lockheed
Martin without a formal documented product test, including the test plan for changed
requirements and the test results. Instead, Northrop Grumman’s practice was to test
software releases only at the unit/module level. Northrop Grumman stated that software
test performed at the unit level versus assembly level are done informally; therefore,
no records were retained. In addition, the Software Safety Engineer was not actively
participating in software product evaluations to review and assess safety assurance-level




                                                                                          DODIG-2013-140 │ 21
Contractor Assessments



                 requirements as required by the Software Development Plan. The assessment reviewed
                 four software product evaluations; however, records indicated that the Software Safety
                 Engineer had participated in only one of four evaluations.

                 Software testing at the unit/module level creates an integration risk because modular
                 testing may not have been sufficient to verify software interoperability issues.


                 Purchasing (7.4)
                 We cited deficiencies in Northrop Grumman’s flow down of supplier requirements and
                 supplier submittal of contract deliverable data. Some purchase orders showed incorrect
                 part or material revision information. In one example, the purchase order for carbon fiber
                 material did not include specification revision information. Northrop Grumman relied on
                 the composite material supplier to determine the correct version of the ordered products.
                 Receiving inspection personnel could not verify the correct versions of parts or materials
                 received due to the lack of part revision information on the purchase order. Therefore, the
                 material was accepted and used in production without engineering approval or verification
                 of correct version. Without revision information in purchase orders, receiving inspection
                 personnel cannot verify that correct versions of parts or materials are received, and that
                 incorrect parts and materials are not introduced into production.

                 We sampled several of Northrop Grumman’s automated purchase orders and found that
                 the purchase orders did not include the means to identify specification revisions on raw
                 material receiving reports. Because of the significance of this finding, Northrop Grumman
                 initiated an in-depth investigation to determine the impact to delivered hardware. Other
                 findings documented that Northrop Grumman was not following its supplier management
                 procedures. Suppliers rated with a “red,” or high-risk supplier scorecard rating were still
                 allowed to conduct self-inspections of material shipped to Northrop Grumman. Northrop
                 Grumman should have imposed additional inspections to ensure material conformity.


                 Production and Service Provision (7.5)
                 Control of Production and Service Provision (7.5.1). Our assessment found evidence
                 of incomplete manufacturing and quality assurance records and a lack of adherence to
                 released process procedures. A major finding noted that Northrop Grumman did not
                 ensure that all quality assurance verification operations were completed. Northrop
                 Grumman did not complete several quality inspection/verification steps in shop orders
                 for manufacturing the Integrated Power Package Door Mechanism and the Collector Panel.




22 │ DODIG-2013-140
                                                                                 Contractor Assessments



We noted that Northrop Grumman personnel did not follow released work instructions.
The operators were not following the process work instruction for setting the composite
cutting blade depth prior to the cut. The operator set a depth that did not agree with the
work instruction. In another example, during center fuselage buildup operations, fuel
sealant had been applied to incorrect areas. The operator stated that the area sealed
was no longer a “stay out zone” on the hardware; however, the work instructions had
not been updated to reflect engineering’s agreement to the change. In addition, two
records documenting that the sealant application on several CTOL tail fins had not been
completed. Our assessment identified several more manufacturing deficiencies.

        •	 Composite cumulative adhesive shelf-life times were not recorded for some
           composite materials.

        •	 The liquid shim application process was not in compliance with
           documented procedures.

        •	 Drill bit life was not being tracked. Drill bit life should be tracked to ensure
           dimensional compliance.

Production Process Verification (7.5.1.1). We noted that Northrop Grumman had not
performed or completed FAIs on all F-35 center fuselage variant assemblies. A review
of Northrop Grumman’s FAI status and schedule data noted that FAIs were initiated
but never completed for LRIP 4 variants. Northrop Grumman discontinued performing
FAIs in accordance with Lockheed Martin’s direction as stipulated in the July 20, 2011,
released FAI plan. The Lockheed Martin FAIs Plan is in direct conflict with the SOW.
Completion of FAIs on the F-35 center fuselage variant assemblies is essential to verify
that the production process is capable of producing assemblies that meet requirements.

Control of Production Equipment, Tools, and Software Programs (7.5.1.3). Our
assessment noted deficiencies with the validation and control of numerical software
programs. More than 75 percent of the F-35 composite numerical control machining
programs were in an “unproven” state with no traceability established between the
numerical control program and the part produced. Specifically, the automated machinery
screen used by the operator to select the file for machining listed numerous files, some
listed as “proven,” others as “unproven.” Numerous files designated as “unproven” could
be inadvertently selected to generate the exact same part number. A similar condition
existed for the measurement programs used to validate the parts produced on the
precision milling machine.    These findings represent a significant risk that either
unproven files or files not designated as the latest approved configuration could be
selected and used in producing the product.




                                                                                          DODIG-2013-140 │ 23
Contractor Assessments



                 We documented tool control deficiencies. The radio frequency identification system was
                 incapable of tracking tool location. It incorrectly identified tools as missing or in another
                 location; allowing similar tools to be returned to incorrect locations. In addition, Northrop
                 Grumman personnel did not always trace missing tools as required by procedures.
                 Several other findings noted deficiencies with the identification, storage, and application
                 of tooling. Ineffective tool control can lead to quality issues such as the wrong tools used
                 during assembly, lost tools, and insufficient visibility in calibration measurement. It can
                 also lead to field returns caused by uncalibrated equipment.

                 Preservation of Product (7.5.5). Our assessment identified deficiencies with the control
                 of limited-life materials. Northrop Grumman’s process for controlling shelf-life materials
                 did not ensure that all materials used on the manufacturing floor were within their useful
                 life. Expired sealant material was used on flight hardware, and elastomeric filler was
                 labeled with incorrect shelf life expiration dates. Also, 17 tubes of expired product were
                 provided to the production floor. We immediately notified Northrop Grumman, which
                 initiated action to recall the nonconforming materials and began the material review
                 board process for the affected parts. An additional finding noted that material shelf
                 life information was not always identified on transfer containers, leading to a loss of
                 traceability to its useful life. Using expired materials could affect structural integrity of
                 the final product.

                 FOD procedures were not being followed in production floor areas designated as
                 category  1 FOD-critical areas.    Specifically, a category 1 FOD-critical area requires
                 heightened FOD awareness including cordoning off the area, displaying FOD-critical
                 signs, and implementing sign-in/sign-out logs and tool control logs. In one instance,
                 crane operators in a FOD-critical area had not recorded themselves or their tooling into
                 the area. All tooling brought into a FOD-critical area are required to be documented on a
                 FOD-control card. In another instance, personnel were performing a close-out operation
                 on an inverted fuel tank and side skins in a category 2 FOD-control area, but this operation
                 should have been performed in a category 1 FOD-critical area. The purpose of a FOD
                 program is to ensure that loose hardware is accounted for, such as bolts or nuts, preventing
                 the puncturing of tanks, hydraulic lines, or damaging other sensitive components during
                 aircraft operation.




24 │ DODIG-2013-140
                                                                                 Contractor Assessments



Control of Monitoring and Measuring Equipment (7.6)
We noted Northrop Grumman was providing extension of calibration intervals without
proper evaluation and engineering approval. A date extension was provided on a
digital pressure gauge with a poor calibration history even though two out-of-tolerance
conditions were documented on this item. Calibrated equipment with a history of out-
of-tolerance conditions should have their calibration interval shortened, not extended.

Other findings addressed calibration deficiencies such as the use of incorrect calibration
procedures and ambiguous humidity requirements in the calibration lab. Without a
disciplined and controlled calibration system, the accuracy and integrity of calibrations
performed is uncertain. This may result in hardware being processed and accepted
because the discrepant test and measurement equipment masked an out-of-
tolerance condition.


Monitoring and Measurement (8.2)
Monitoring and Measurement of Product (8.2.4). We found that Northrop Grumman
did not use the correct test system configuration or software configuration for performing
electrical test methods on composite parts and material. Another finding documented
that quality assurance personnel did not record or witness production measurements
and test results on the integrated assembly line. We also noted that work instructions
did not require quality assurance personnel to record nut plate push test results and rivet
flushness measurements; therefore, no test values were recorded and test verification
could not be done.     Without proper test set-ups and quality assurance personnel
verifying critical measurements, Northrop Grumman cannot be certain whether all the
requirements were tested and verified.


Continuous Improvement (8.5)
Corrective Action (8.5.2). Our assessment team noted that the Northrop Grumman
corrective action system for in-house operations and suppliers was ineffective. Northrop
Grumman was in the process of transitioning into a new software problem reporting tool;
however, neither the legacy tool nor the new tool adequately captured the root cause
and analysis of software nonconformance. We also noted that Northrop Grumman did
not conduct root cause analysis for software internal audit findings and did not approve
corrective action plans in a timely manner. Root cause analysis and timely corrective
actions prevent future nonconformances and marginal products from being fielded.




                                                                                          DODIG-2013-140 │ 25
Contractor Assessments



                 Lockheed Martin Program Management at
                 Northrop Grumman
                 Our assessment documented several major findings related to Lockheed Martin’s flow
                 down of requirements to Northrop Grumman in the areas of Software Traceability,
                 Software Development, Software Corrective Action, and FAI.

                 Lockheed Martin did not maintain mission systems requirements traceability to
                 the software-level requirements.     The Lockheed Martin Dynamic Object Oriented
                 Requirements System (DOORS) requirements database contained about 300 orphan
                 requirements for missions systems. An orphan requirement is one that is not derived
                 from or traceable to top-level system requirements. Lockheed Martin identified this
                 deficiency in July 2010; however, it did not document or implement the root cause and
                 corrective action.

                 Our review of the JSF Program Air System Block Plan showed that the plan had not been
                 updated since August 13, 2008, and does not reflect current block planning defining
                 Air Systems capabilities for the F-35 Program. As a result, there is no authoritative
                 document defining current and planned F-35 software capabilities.


                 Northrop Grumman Assessment Summary
                 Our assessment found deficiencies at both the El Segundo and Palmdale sites. Deficiencies
                 at the Northrop Grumman, El Segundo, site were primarily in the area of design and
                 purchasing. Northrop Grumman’s practice of performing unit/modular software testing
                 without documenting the results creates significant concerns regarding requirement
                 verification and interoperability. Without adequate design evaluation and test of mission
                 system software, Northrop Grumman cannot ensure all software system and safety
                 requirements have been met. Purchase orders lacked material version information to
                 ensure that material was procured to the required specifications. After bringing this
                 deficiency to their attention, Northrop Grumman initiated an investigation to determine
                 the impact on the hardware.




26 │ DODIG-2013-140
                                                                                 Contractor Assessments



Our assessment of the Palmdale facility noted several deficiencies, most of which were
attributed to the creation of a new integrated assembly line. Documentation of processes
and procedures used in manufacturing had not reached the expected maturity.  Procedures
did not reflect the actual operation, were missing required detail, and required additional
proofing for accuracy. Northrop Grumman had implemented a radio frequency identifier
system for tool control; however, it was ineffective and did not provide the necessary
accountability and control warranted for a complex production and assembly area.


BAE Systems
(Samlesbury, United Kingdom)

BAE Systems is Lockheed Martin’s
other    principal    subcontractor.
BAE manufactures the aft fuselage
and the carrier variant wing-fold
system; including critical items
such as the horizontal tails and
vertical tails.   Additionally, BAE,
                                        Figure 7. BAE Aft Fuselage
as one of the major software            Source: Photo courtesy of BAE Systems
suppliers for the F-35 aircraft,
is responsible for developing fuel system software, navigation and display software,
vehicle system prognostics and health manager software, and off-board mission support
software. Figure 7 is an image of the aft fuselage on the manufacturing floor at BAE.

Our assessment of BAE resulted in 82 findings that identified weaknesses in BAE’s
implementation of the AS9100 Quality Management System. Additionally, Lockheed
Martin had several deficiencies in requirements flow down to BAE. We also identified
issues related to JPO and DCMA oversight. Figure 8 provides BAE findings by AS9100
clause with the following sections summarizing significant issues documented during
the assessment.




                                                                                          DODIG-2013-140 │ 27
Contractor Assessments



                 Figure 8. BAE Findings
                  No. of Findings
                  20                                                                                                                                                                                                                                                                                                                                                                                                                                            19



                                                                                                                                    Minor Findings
                  15                                                                                                                Major Findings
                                                                                                                                    OFI

                                                  10
                  10                                                                                                                                                                                                                                                                                                                       9                                                                        9
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  8
                                                                                                                                                                                                                                                                                                                                                                                                                                             7
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    6

                      5                                                                                                                                                                                                                                        4
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    3
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         2                                                                                                                                  2         2
                                1
                                                                              0                   0                      0                    0                       0                                0                           0                                                   0                       0                                                                   0                                                                                                                                                                    0                                                                                                                0
                      0
                          QMS-General - 4.1
                                              QMS-Documentation - 4.2
                                                                        Management - 5.1
                                                                                           Customer Focus - 5.2
                                                                                                                  Quality Policy - 5.3
                                                                                                                                         Planning - 5.4
                                                                                                                                                          Resp/Authority/Communication - 5.5
                                                                                                                                                                                               Management Review - 5.6
                                                                                                                                                                                                                         Provisions & Resources - 6.1
                                                                                                                                                                                                                                                        Human Resources - 6.2
                                                                                                                                                                                                                                                                                Infrastructure - 6.3
                                                                                                                                                                                                                                                                                                       Work Environment - 6.4
                                                                                                                                                                                                                                                                                                                                Planning of Product Realization - 7.1
                                                                                                                                                                                                                                                                                                                                                                        Customer-Related Processes - 7.2
                                                                                                                                                                                                                                                                                                                                                                                                           Design & Development - 7.3
                                                                                                                                                                                                                                                                                                                                                                                                                                        Purchasing - 7.4
                                                                                                                                                                                                                                                                                                                                                                                                                                                           Production and Service Provision - 7.5
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    Monitoring & Measurement Equipment - 7.6




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           Continous Improvement - 8.5
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Regulatory
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               Measurement & Analysis - 8.1
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Monitoring & Measurement Processes - 8.2
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Control of Nonconforming Product - 8.3
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  Analysis of Data - 8.4




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      OFI
                 Documentation Requirements (4.2)
                 Control of Documents (4.2.3). We identified several production documents that were
                 not under configuration control. Examples of nonconfiguration controlled procedures
                 and/or documents available for use include: chemical treatment, paint identification,
                 machining health and safety plan, control of heat treatment, and bore-cutting tool
                 and lubricate.

                 BAE updated the F-35 quality assurance plan for LRIP 4 and 5, but did not submit the
                 documents to Lockheed Martin for approval. Production process documentation not
                 approved or under revision control included the following checklists: daily production
                 verification, first article verification, and production process verification. Controlling
                 such documentation creates the means to ensure each assembly is exact and conforming
                 to requirements.




28 │ DODIG-2013-140
                                                                                  Contractor Assessments



Human Resources (6.2)
Competence, Training, and Awareness (6.2.2). BAE lacked discipline in the areas of
employee training requirements, recertification, and training records. Skills matrices
did not always identify the training required for each operator to perform a particular
manufacturing process. For example, within building 355, no one had completed training
competency in any of the required technical skills for the following critical processes:
press operations, friction sawing, part marking, tungsten inert gas welding, automatic
grit blast machining, and radial arm drilling. Many of the personnel lacking training
were responsible for manufacturing fracture-critical hardware. In addition, we found in
the other manufacturing facilities that BAE had not established performance criteria to
evaluate employee competency. We also found that BAE did not have a recertification
program for wire harness repair.

A training and certification program, to include control of training records, is critical to
ensure that personnel manufacturing and inspecting hardware are proficient to prevent
nonconformances. BAE’s lack of a disciplined training program is a significant concern to
the production of F-35 hardware.


Planning of Product Realization (7.1)
Configuration Management (7.1.3).           BAE suppliers were not submitting minor
changes to BAE for review and approval as required. For example, Honeywell, a BAE
supplier, approved an engineering change request for the F-35 Life Support System
without Lockheed Martin or BAE approval. Another BAE supplier, Ametek, approved an
engineering change order for coating painting processes without BAE approval.

The assessment also noted that BAE suppliers were not submitting configuration
status accounting records or reports that provide the “as-built” versus “as-designed”
configuration. For example, Honeywell did not provide a configuration status accounting
report for products delivered during LRIP 4 and LRIP 5.            Additionally, Goodrich
Actuation also had not provided a configuration status accounting report for LRIP 5
delivered products.

BAE did not have schematics/drawings to define the Fuel Management System
software test stand and did not have the set-up/take-down procedures or
troubleshooting guidelines necessary to maintain the test stand configuration.  BAE
also did not conduct software certification of the software test stand, as required
prior to software qualification testing.




                                                                                           DODIG-2013-140 │ 29
Contractor Assessments



                 Controlling engineering changes and providing adequate configuration status accounting
                 of product is essential to ensure the approved configuration replicated correctly every
                 time. Failure to maintain the required configuration management disciplines increases
                 program performance, cost, and schedule risks.


                 Design and Development (7.3)
                 We identified several major deficiencies in the areas of program management,
                 configuration control, and testing. In the area of software development, BAE was
                 working to an outdated version of the F-35 mission systems software development
                 plan  (SDP),7 was not maintaining the software design document (SDD) for the vehicle
                 system fuel management system, and was working to unapproved software regression
                 test procedures. In the area of hardware development, BAE was not approving all design
                 review plans for the F-35 Program.

                 Design and Development Planning (7.3.1).                                       BAE developed F-35 software
                 without using the latest Lockheed Martin approved SDP. According to the contract,
                 BAE is required to follow the latest software design plan released by Lockheed Martin.
                 BAE was developing software to the Mission Systems Software Development Plan
                 revision C (dated September  15, 2007), although the current approved and released
                 revision is revision E (dated August 14, 2012). Inadequate flow down of software
                 development requirements could affect aircraft performance and safety requirements.

                 Design and Development Outputs (7.3.3). BAE’s software requirements specification
                 (SRS) for the vehicle system fuel management system was revised 15 times over a 5-year
                 software development period; however, the SDD was not updated with these changes.
                 For example, the SDD was not updated to reflect corrective actions for fuel management
                 system software trouble reports that were in the revised SRS. Software design decisions
                 and requirements changes should be captured in the SDD; otherwise, the software design
                 baseline may not meet system performance or safety requirements.

                 Design and Development Review (7.3.4). We noted that the life cycle management
                 design review plan had not been approved by the project engineering manager and
                 the design review chairman. Approval of the plan certifies that the objectives and exit
                 criteria fulfill the objectives of the review. If the objectives and exit criteria in the design
                 review plans are not certified, there is no assurance that performance requirements will
                 be realized.

                 	7	
                       The SDP describes a developer’s plans for conducting a software development effort. The term “software development” is
                       meant to include new development, modification, reuse, reengineering, maintenance, and all other activities resulting in
                       software products. (DAU)




30 │ DODIG-2013-140
                                                                                Contractor Assessments



Design and Development Validation (7.3.6). We documented that BAE was using
an unapproved regression test procedure and conducted incomplete regression tests.
Regression testing is important because it provides confidence that changes do not
degrade functionality. One finding documented that there was no approved regression
test procedure for the Prognostics and Health Management software release. Additionally,
the functional test description for the Prognostics and Health Management software
requires 35 test runs, but the test report showed that BAE partially conducted only 9 of
the 35 required tests. In addition, in the software requirements verification matrix,
four requirements were determined “unverifiable by test” and required verification by
analysis; however, the analysis was not performed.


Purchasing (7.4)
BAE’s flow down of requirements to suppliers was insufficient to ensure that the
delivered product meets all the necessary quality assurance and technical requirements.
The assessment documented several findings citing inadequacies in BAE flow down of
supplier requirements and suppliers submittal of contract deliverable data.

Purchasing Information (7.4.2). BAE issued several purchase orders to suppliers that
contained inaccurate and inconsistent requirements. For example, two purchase orders
cited the wrong SOW, and three purchase orders did not specify Government-furnished
equipment by part number.

BAE also flowed down incorrect configuration management requirements to suppliers.
In accordance with Lockheed Martin direction, the “Configuration Management
Requirements for F-35 Suppliers and Subcontractors,” should have been flowed to
suppliers in purchase orders supporting LRIP and follow-on contracts. However, an
earlier requirements document, titled, “F-35 Joint Strike Fighter Program, Configuration
Management Plan,” had been flowed to suppliers, but did not contain the necessary
supplier configuration management responsibilities and requirements. Without proper
flow down of technical and quality assurance requirements, BAE cannot ensure that their
products meet performance, reliability, and other system requirements.

Verification of Purchased Product (7.4.3). BAE was not verifying that its suppliers
were submitting critical supplier data deliverables such as acceptance test procedures
(ATPs), quality assurance plans, and configuration management certifications.




                                                                                       DODIG-2013-140 │ 31
Contractor Assessments



                 Production and Service Provision (7.5)
                 Control of Production and Service Provision (7.5.1). We documented that BAE was
                 not following process inspection procedures, completing manufacturing and quality
                 assurance records, or complying with tool control processes. BAE standard procedures
                 require that inspectors verify and record that operations are complete.             However,
                 in several instances, the inspector did not record completion of the operations.  For
                 example, we documented that quality assurance personnel had not verified epoxy primer,
                 urethane topcoat, and abrasion-resistant coating processes. In another case, there was
                 no indication that inspectors had completed buy-off of the water break test (ensures that
                 the surface is properly prepared prior to bonding) on the tail-hook door and aft section.

                 Several procedures did not contain adequate detail or requirements to control the
                 process. For example, specification requirements for the application and mixing times
                 for the epoxy primer and topcoat were incorrectly identified on the paint shop process
                 documents. As a result, actual mix times recorded in manufacturing process documents
                 did not meet the specified requirements.

                 We found evidence of incomplete manufacturing and quality assurance records.
                 In 15 instances, cleaning and cure details were not recorded in the mix log books. We found
                 records with insufficient details for paint pot life, mix time, and touch-up processes. Mix
                 times and pot life details are essential to ensure that material properties meet specification
                 requirements prior to application. The failure to document manufacturing and inspection
                 operations can lead to incomplete work, loss of traceability, and nonconforming products.

                 Production Process Verification (7.5.1.1). A major finding noted that BAE had not
                 performed or completed FAIs on all F-35 details, subassemblies, and assemblies as
                 required by Lockheed Martin supplier requirements and BAE internal instructions. For
                 example, 11 subassembly FAIs were not conducted and three subassemblies had failed
                 the initial FAI. A corresponding major finding was directed to Lockheed Martin for
                 flowing down conflicting FAI requirements. Successful completion of FAIs on F-35 details,
                 subassemblies and assemblies is one of the criteria for LRIP; therefore, BAE’s processes
                 do not reflect that criterion.

                 Control of Production Equipment, Tools, and Software Programs (7.5.1.3). The
                 assessment identified several major deficiencies documenting the inadequate control
                 of manufacturing tooling, jigs, and fixtures. Operators applied an unapproved steel
                 epoxy stick in the incorrect location to hold two parts on the aft closeout rib in position




32 │ DODIG-2013-140
                                                                                   Contractor Assessments



for machining operations rather than using the specified tooling. We found that BAE
personnel were not monitoring tool wear of cutting tools in the aft fuselage assembly
in accordance with their production work instructions. To prevent quality defects, the
maximum specified use for a drill bit was 50 drilled holes; however, operators were not
tracking the number of times a drill bit was used.

We documented systemic issues with the storage, inventory, and accounting of tooling.
Tools were often unaccounted for and not in their correct locations as designated by the
work cell tool inventory sheets. A major finding documented that BAE personnel did
not perform visual, functional, and dimensional tool cycle checks on the final assembly
tool fixture as required. Failure to control manufacturing tooling can lead to the use of
discrepant, damaged, or incorrect tooling.

Identification and Traceability (7.5.3). We documented that inventory lists located on
carts throughout the factory were inaccurate. We also found hardware commingled, and
in some cases, improperly identified. As a result, positive part identification and control
through the assembly process was not always evident. Because parts are manufactured
for a specific airframe and are not readily interchangeable, failure to maintain traceability
and identification of those parts results in interchangeability issues, nonconformances,
and unnecessary rework or scrap.

Preservation of Product (7.5.5). The assessment documented numerous examples
of limited shelf-life materials (LSLM) improperly labeled, tracked, and controlled. For
example, BAE personnel used expired Click Bond adhesive material in the manufacture of
vertical and horizontal tail assemblies. Other adhesive materials labeled with improper
expiration dates were available for use. In addition, a bottle of expired alodine material
was used on the production floor in the carbon subassembly area. Shelf-life material that
is not properly labeled or controlled can lead to the use of expired materials in production.
Use of expired shelf-life material compromises the assurance that its material properties
will satisfy the intended requirements and the integrity of the assembly.


Control of Monitoring and Measuring Equipment (7.6)
BAE was not controlling calibration laboratory processes to meet established
requirements. BAE was operating two calibration laboratories, but neither laboratory
was accredited to meet ISO/IEC (International Electrotechnical Commission) 17025,
“General Requirements for the Competence of Testing and Calibration Laboratories,” as
stipulated by BAE’s internal procedure and a Lockheed Martin requirement. In addition,




                                                                                            DODIG-2013-140 │ 33
Contractor Assessments



                 several calibration procedures in the Test Instrumentations Laboratory did not address all
                 requirements and criteria required by American National Standards Institute (ANSI) Z540,
                 “Requirements for the Calibration and Measuring and Test Equipment.” For example,
                 the calibration procedures for temperature sensors and field test instrumentation did
                 not address measurement ranges and tolerances for the item to be calibrated, minimum
                 performance requirements, and criteria and requirements for calibration. Moreover, BAE
                 did not have procedures to calculate the uncertainty of measurements for calibrations
                 performed or a calibration procedure for furnaces or ovens.

                 BAE was not following its internal procedures for the tagging and removal of expired
                 monitoring and measurement equipment.           Numerous examples of equipment with
                 calibration deficiencies were found throughout the facility. Deficiencies included out-of-
                 calibration torque wrenches, vernier calipers, and a surface plate. Furthermore, torque
                 wrenches were used for verification outside of their calibrated capability. In addition, BAE
                 was not assessing the effect of out-of-tolerance equipment used on production hardware.
                 In summary, the number of tool control and calibration deficiencies leaves uncertainty in
                 BAE’s product processing and acceptance.


                 Measurement, Analysis, and Improvement (8.0)
                 Control of Nonconforming Product (8.3) and Corrective Action (8.5.2). BAE is
                 closing material review board documents without confirming effective and meaningful
                 corrective action. Specifically, four out of ten material review board dispositions for
                 nonconformances were closed without implementing the specified corrective action. In
                 another finding, BAE did not submit all material review dispositions to the onsite DCMA
                 representative for concurrence. Specifically, a waiver/deviation for the vertical tail
                 substructure included both nonstandard repairs and use as is dispositions without any
                 evidence of submittal to the DCMA representative for required approval.

                 The supplier corrective actions process did not always ensure suppliers responded to
                 corrective action requests within the required time period. For example, 21 of 63 supplier
                 corrective action request forms were past due by as much as 200 days. Furthermore, the
                 supplier corrective action data were not accurately maintained. The supplier electronic
                 corrective action database identified several supplier corrective action requests as closed;
                 however, a sample review of the documentation indicated the status as open. Effective
                 review and verification of material review board dispositions and associated corrective
                 actions are necessary to correct and prevent nonconformances.




34 │ DODIG-2013-140
                                                                                 Contractor Assessments



Lockheed Martin Program Management at BAE
We reviewed the effectiveness of Lockheed Martin program management and wrote
seven findings. Lockheed Martin did not communicate to BAE that the latest software
development plan was revision E, released on August 14, 2012; thus, BAE was developing
JSF Mission Systems Software to revision C, dated 2007. The difference between the C and
E revision could have a significant impact on functionality and performance.

In another finding, the F-35 Air Systems Software Development Plan requires that each
product-level software development plan include plans for software maintenance.
However, the Lockheed Martin approved software development plans for utilities and
subsystems, prognostics and health management, ejection seat sequencer, boost/
transfer pump controller, and life support system did not include the required software
maintenance section.    As a result, there is no assurance that software released is
maintainable after delivery.

Lockheed Martin’s FAI plan conflicts with the AS9102 requirements flowed down to BAE
in the SOW, resulting in BAE not performing FAIs on major assemblies and subassemblies.
Failing to perform FAIs in accordance with AS9102 could result in the inability to achieve
process stability and successfully meet program production rate goals. The lack of
process stability could also result in increased costs resulting from discrepant hardware
and/or the need to perform additional product conformance verification to ensure
engineering requirements.

Lockheed Martin did not flow down the correct quality management system requirement
and the correct nonconforming material retention requirements. Additionally, Lockheed
Martin did not specify the delivery requirements for the Counterfeit Parts Prevention
and Control Plan; therefore, BAE did not produce a plan as required by contract. The
Lockheed Martin configuration management plan imposed on BAE identifies additional
requirements for BAE to follow; however, several of those references and the processes
were no longer valid. Flow down of current and correct requirements to suppliers is
essential to ensure delivered products meet program requirements.


Joint Program Office Oversight at BAE
JPO did not flow requirements for a CSI program to Lockheed Martin; therefore, BAE
did not implement the required processes to ensure safety of flight.




                                                                                         DODIG-2013-140 │ 35
Contractor Assessments



                 DCMA Oversight at BAE
                 The DCMA UK was not reviewing BAE classifications and dispositions of all minor
                 variances, nor participating in or reviewing the BAE Material Review Board actions as
                 required by its LOD. BAE processes an average of 20 minor variations a day; however,
                 as agreed to with BAE, DCMA reviews only about 10 percent of these, or 40 variances a
                 month. In addition, DCMA UK had not delegated the responsibility for review of minor
                 variances to DCMA office located at BAE suppliers. Government oversight ensures that
                 engineering evaluations and corrective actions occur.


                 BAE Systems Assessment Summary
                 The software tests review provided little confidence that software was fully tested. There
                 was also inadequate communication and requirements flow down from Lockheed Martin
                 to BAE, leading to software configuration management gaps.

                 Supplier management practices failed to consistently define technical and quality
                 assurance requirements in purchase orders, ensure supplier corrective actions were
                 completed within process timeframes, and verify supplier data submittals were in
                 accordance with purchase orders. BAE must ensure all technical and quality assurance
                 requirements are properly included in contracts and implemented by their suppliers to
                 meet cost, schedule, and performance goals.

                 In addition, improved production discipline is required. The assessment showed that
                 additional process discipline is required to ensure conformity to end-item requirements.
                 Personnel were relying on their knowledge of the design and production processes,
                 rather than following documented processes. We found 14 examples of documentation
                 that lacked essential detail to define, implement, and capture production processes.

                 Tool control, maintenance of precision tools, and calibration needs attention. Uncontrolled
                 and unaccounted for tools were prevalent throughout the production facility. Additionally,
                 the calibration system had significant deficiencies. A disciplined calibration program is
                 essential in determining the performance and acceptance of product.




36 │ DODIG-2013-140
                                                                               Contractor Assessments



L-3 Display Systems
(Alpharetta, Georgia)

L-3 Display Systems (L-3), Alpharetta, Georgia, a division of L-3 Communications
Corporation, is a Lockheed Martin subcontractor that manufactures the Panoramic
Cockpit Display (PCD) for the F-35 Lightning aircraft.  The PCD, Figure 9, performs
significant functions such as providing pilot flight navigation and sensor information,
communication, and threat situational awareness.  The PCD consists of two major
components, the Display Unit (DU) and the Electronics Unit (EU). The DU is the interface
between the pilot and the aircraft situational awareness systems while the EU is the
electronics package capturing and providing data to the DU from aircraft systems.

Figure 9. L-3 Communications Panoramic Cockpit Display.
Source: Image courtesy of L-3 Display Systems




Our assessment of L-3 resulted in 56 findings that identified deficiencies in L-3’s
implementation of the AS9100 Quality Management System. Figure 10 provides L-3
findings by AS9100 clause with the following sections summarizing significant issues
documented during the assessment.




                                                                                       DODIG-2013-140 │ 37
Contractor Assessments



                 Figure 10. L-3 Communications Findings
                 No. of Findings
                 15

                                                                                                                                                                                                                                                                                                                                                                                                                                                              12
                                                                                                                                Minor Findings
                                                                                                                                                                                                                                                                                                                                                                                                           11
                                                                                                                                Major Findings
                 10                                                                                                             OFI                                                                                                                                                                                                     9                                                                                                                                                                    9




                  5                               4                                                                                                                                                                                                                                                                                                                                                                                      4


                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       2
                                                                                                                                                                                                  1                                                        1                                                                                                                                                                                                                                                                                        1                                                                                                                                          1                                  1
                             0                                           0                     0                     0                   0                       0                                                              0                                                   0                      0                                                                    0                                                                                                                                                                                                      0                                         0                                  0
                  0
                      QMS-General - 4.1
                                          QMS-Documentation - 4.2
                                                                    Management - 5.1




                                                                                                                                                                                           Management Review - 5.6
                                                                                       Customer Focus - 5.2
                                                                                                              Quality Policy - 5.3
                                                                                                                                     Planning - 5.4
                                                                                                                                                      Resp/Authority/Communication - 5.5


                                                                                                                                                                                                                     Provisions & Resources - 6.1
                                                                                                                                                                                                                                                    Human Resources - 6.2
                                                                                                                                                                                                                                                                            Infrastructure - 6.3
                                                                                                                                                                                                                                                                                                   Work Environment - 6.4
                                                                                                                                                                                                                                                                                                                            Planning of Product Realization - 7.1
                                                                                                                                                                                                                                                                                                                                                                    Customer-Related Processes - 7.2
                                                                                                                                                                                                                                                                                                                                                                                                       Design & Development - 7.3
                                                                                                                                                                                                                                                                                                                                                                                                                                    Purchasing - 7.4
                                                                                                                                                                                                                                                                                                                                                                                                                                                       Production and Service Provision - 7.5
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                Monitoring & Measurement Equipment - 7.6




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Analysis of Data - 8.4
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           Measurement & Analysis - 8.1
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          Monitoring & Measurement Processes - 8.2
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     Control of Nonconforming Product - 8.3


                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       Continous Improvement - 8.5
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     Regulatory
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  OFI
                 Documentation Requirements (4.2)
                 Our assessment of L-3’s document control system identified several findings with review,
                 revision control, approval, and distribution of items such as internal procedures and
                 manufacturing instructions. We found some documentation did not have management
                 approval, were released without periodic review, had inaccurate revisions and dates, or
                 document indexes that were not maintained. Check sheets used to define the buildup
                 of circuit cards in the surface-mount technology assembly area were not controlled
                 and there was no means to verify the latest revision. This lack of accurate, complete,
                 and current documentation could adversely affect the ability of the F-35 Program to
                 deliver products that meet customer performance requirements in accordance with
                 schedule requirements.




38 │ DODIG-2013-140
                                                                                  Contractor Assessments



Configuration Management (7.1.3)
Our assessment documented several findings pertaining to configuration management.
We identified a lack of baseline technical documentation for L-3 DU and EU products.
According to the L-3 product configuration documentation, a documented product
baseline was required concurrently with the first production aircraft delivered in
May 2011; however, this was not done. Similarly, an allocated baseline configuration was
required for CDR closure, but it also was not done. A configuration baseline establishes a
product’s form, fit, and functional performance that is analyzed, tested, and characterized.
Such a rigorous approach was lacking, and could result in additional product cost.

L-3’s engineering change control process lacked discipline. L-3 incorrectly classified
engineering changes that affect the form, fit, and function as “minor” changes when they
should have been classified as “major.” Major engineering changes require Lockheed
Martin approval. For example, L-3 classified two changes as “minor” that increased the
weight of the display interface circuit card assembly and weight of the touch screen by
85 percent and 62 percent, respectively. These changes affected product form, fit, or
function and should be classified as “major” and not as “minor.” We identified that L-3
implemented several “major” changes prior to receiving Lockheed Martin authorization.
Incorrect classification of engineering changes and the implementation of engineering
changes prior to authorization bypass the systems engineering review and approval
cycle. Inadequate review of engineering changes will adversely affect product performance,
quality, and reliability.


Design and Development (7.3)
We found that the electromagnetic interference (EMI) qualification for the PCD, EU, and
DU did not meet the performance-based specification, frequency bandwidth requirement.
The performance-based specification requires that radiated susceptibility testing
be performed over a specific range of frequencies (10 KHz to 18 GHz) in accordance
with MIL‑STD-461E, “Requirements for the Control of Electromagnetic Interference
Characteristics of Subsystems and Equipment.” However, L-3 was performing testing in
the range of 30 MHz to 18 GHz without engineering approval for the reduced frequency
range. Although the EMI test report was comprehensive, the quality assurance review
process failed to identify that a performance-based requirement was not being met.
Additionally, according to the documentation, the EMI qualification test was completed
without issues.




                                                                                           DODIG-2013-140 │ 39
Contractor Assessments



                 L-3 did not adequately review the F-35 PCD integrated system verification plan/
                 procedures. The PCD Functional Test Procedure, Software Functional Test Description,
                 and Requirements Verification Matrix had not been reviewed or dispositioned. We
                 also found that Lockheed Martin, as the prime contractor, should have approved these
                 documents but did not.


                 Product and Service Provisions (7.5)
                 Control of Production and Service (7.5.1). Quality assurance personnel did not verify
                 several DU ATP luminance8 requirements to the updated requirement. Specifically, black
                 nonuniformity and red, green, blue, and white luminance nonuniformity were required
                 not to exceed the value of 30 percent. L-3 indicated to Lockheed Martin that it could
                 not reasonably meet the specification, so Lockheed Martin issued a variance allowing the
                 value not to exceed 50 percent. Although Lockheed Martin granted requirement relief,
                 the L-3 test procedure did not reflect the change, and quality assurance personnel did not
                 verify the new requirement.

                 Production Process Verification (7.5.1.1). Our findings identified deficiencies with
                 L-3’s supplier FAI program. L-3 did not require all selected suppliers to perform FAIs.
                 Specifically, the JSF contract provision for the LRIP 5 states that FAI requirements shall
                 be flowed down to L-3 suppliers. Two purchase orders for suppliers, Ayesas and DDI
                 Sales Corporation, required FAI on their product. However, the supplier did not perform
                 FAIs, and L-3 accepted the hardware without suppliers demonstrating the capability to
                 produce conforming products. As an example, we found a supplier FAI report containing
                 several nonconformances that were not addressed, although L-3 had been accepting
                 hardware from this supplier since 2008. Finally, L-3 was not maintaining all supplier
                 FAI quality assurance records in accordance with contractual requirements. L-3’s lack
                 of systems engineering, regarding FAIs, creates uncertainty that components built in the
                 future will conform to requirements.

                 Control of Production Equipment, Tools, and Software Programs (7.5.1.3).
                 L-3 did not maintain EU and DU test stations to drawing requirements. Of the
                 five test stations in operation, one test station did not have a released drawing package
                 defining the equipment, equipment wiring, software, and verification of accuracy. Another
                 test station had a released drawing but the test station was not configured in accordance
                 to the released drawing. In addition, we could not find evidence that similar test stations



                 	8	
                       Merriam-Webster dictionary defines luminance as: “the luminous intensity of a surface in a given direction per unit of
                       projected area.”




40 │ DODIG-2013-140
                                                                                   Contractor Assessments



would produce comparable results. We found the method for performing correlation
analysis among the test stations was undefined. Correlation studies should be performed
to quantify the variability between multiple test stations used for final acceptance test.

Preservation of Product (7.5.5).        Our assessment team identified four findings
regarding the control of LSLM, FOD, and electrostatic discharge (ESD) processes and
practices. We found LSLM items on the manufacturing floor not stored at the required
temperature, improperly identified, or expired. Additionally, L-3 did not fully implement
or follow its product protection program and requirements for FOD and ESD. DUs were
stored on transport carts without adequate FOD and ESD protection. In addition, L-3
did not perform verification of the conductive flooring and constant wrist strap monitors
in accordance with its ESD Compliance Verification Plan. This lack of preservation of
product could result in reduced product quality and reliability.


7.6 Monitoring and Measurement Equipment
L-3 could not demonstrate adherence to calibration standards. The current Lockheed
Martin purchase order requires L-3 to have a calibration program that meets one of the
three industry standard requirements: ISO 10012-1, “Requirements for Measurement
Processes and Measuring Equipment,” ISO 17025, “General Requirements for the
Competence of Testing and Calibration Laboratories,” or ANSI Z540-3, “Requirements for
the Calibration of Measuring and Test Equipment.”

We found seven examples of out-of-calibration equipment still in use on the production
floor or available for use. Four pieces of equipment were in the calibration area and
not properly identified and segregated. Three others were available for use on the
production floor with only one of the three tagged as out-of-calibration. L-3 could not
provide objective evidence that an out-of-calibration piece of equipment was traceable
to the flight units tested, as evidenced by evaluating three flight unit acceptance records.
L-3’s calibration and control system failed to provide adequate corrective actions. As an
example, engineering personnel evaluated an out-of-tolerance photometer requiring the
next four photometers to be evaluated to the internal lighting standard. We found no
documentation or evidence that the evaluation had occurred.




                                                                                             DODIG-2013-140 │ 41
Contractor Assessments



                 L-3’s dimensional final inspection methods and measurement equipment were
                 incapable of verifying product conformance to drawing requirements. The ATP required
                 the inspector to use “single-dimension vernier calipers” to measure a multi-dimension
                 geometric parameter on the DU. However, this measurement equipment and method was
                 incapable of measuring the required dimensions.

                 Our findings indicate that the systemic issues with the control of monitoring and
                 measurement equipment could significantly affect measurement accuracy and/or quality
                 assurance data used to determine product acceptance.


                 Lockheed Martin Program Management at L-3
                 We reviewed the effectiveness of Lockheed Martin program management because it is
                 the prime contractor ultimately responsible to integrate L-3 products. We found that
                 the performance-based specification for the aircraft PCD flowed down from Lockheed
                 Martin to L-3 had incomplete, conflicting, and ambiguous system requirements. There
                 were action items from CDR pertaining to the requirements that were not formally
                 closed, leading to the document ambiguity. The Lockheed Martin corrective action
                 system implemented at L-3 failed to effectively eliminate nonconformities and prevent
                 their recurrence. Lockheed Martin accepted PCDs without L-3 having performed FAI
                 and did not require L-3 to perform configuration status accounting for components
                 delivered for LRIP units 1 through 5, that were previously delivered. Lockheed Martin
                 is not approving or disapproving all major changes nor providing concurrence on the
                 classification submitted by L-3, providing further evidence that Lockheed Martin was not
                 sufficiently managing its suppliers.


                 DCMA Oversight at L-3 Communications
                 We found that DCMA Fort Worth, the prime DCMA office for the program, and DCMA
                 Atlanta did not execute all responsibilities specified in the memorandum of agreement
                 for the F-35 Program. DCMA Fort Worth delegated the administration of Government
                 contract quality assurance of all F-35 parts produced at L-3 to DCMA Atlanta in a letter
                 of delegation (LOD), with the requirement that Atlanta perform risk-based surveillance
                 on high-risk components. During our review of DCMA Atlanta records, we found no
                 evidence that surveillance was being conducted on F-35 products within the L-3 facility.
                 Furthermore, DCMA Atlanta was not providing the prescribed reports requested in the
                 LOD such as quality escapes, supplier risks, corrective action requests, and monthly
                 Product Assessment Reports.




42 │ DODIG-2013-140
                                                                                 Contractor Assessments



L-3 Communications Assessment Summary
We found deficiencies in most of the AS9100 Quality Management System disciplines. The
most significant deficiencies highlight the lack of process discipline in implementation of
Product Realization, which includes the following categories: configuration management,
product verification, and monitoring and measurement equipment.

The implementation of L-3’s configuration management system was inadequate and
could lead to inconsistencies in product performance, functionality, and reliability. The
L-3 DU and EU development program did not produce product configuration baselines
prior to delivery of the first production unit. L-3 had incorrectly classified engineering
changes that affected form, fit, and function, such as increases to weight and human
interface constraints, and had not received Lockheed Martin approval for major design
changes prior to manufacturing the product.

L-3’s lack of process discipline in the area of product verification was particularly
disconcerting.    We noted systematic breakdowns in requirements verification, FAI,
test station configuration, and preservation of product that raises questions about the
integrity of the L-3 product. L-3 did not consistently verify that product acceptance test
data met specified requirements and did not consistently review FAI reports. In addition,
L-3 did not manage or maintain test station configurations. L-3 also insufficiently
implemented LSLM, FOD, and ESD processes.

L-3 did not demonstrate adherence to calibration standards. L-3 did not ensure out-
of-calibration equipment was identified and removed from the production floor. L-3’s
calibration system failed to recall flight hardware after discrepant test equipment
was identified.




                                                                                          DODIG-2013-140 │ 43
Contractor Assessments



                 Honeywell Aerospace
                 (Yeovil, United Kingdom)

                 Honeywell is a subcontractor to BAE and a tier 2 subcontractor to Lockheed Martin.
                 Honeywell manufactures the F-35 aircraft life support system, consisting of the On‑Board
                 Oxygen Generation System (OBOGS), Backup Oxygen System (BOS), and Service
                 Connection Package. Figure 11 is a diagram of the Life Support System.

                 Figure 11. Diagram of the Life Support System.
                 Source: Image courtesy of Honeywell




                                                                              Backup Oxygen
                                                                              Supply (BOS)



                        On-Board Oxygen
                        Generation System         OBOGS
                        (OBOGS)




                 Our assessment of Honeywell resulted in 38 findings that identified deficiencies in
                 Honeywell’s implementation of the AS9100 Quality Management System. Figure 12
                 provides Honeywell findings by AS9100 clause with the following sections summarizing
                 significant issues documented during the assessment.




44 │ DODIG-2013-140
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 Contractor Assessments



Figure 12. Honeywell Findings
No. of Findings
15

                                                                                                                                                                                                                                                                                                                                                                                                                                            12
                                                                                                               Minor Findings
                                                                                                               Major Findings
10                                                                                                             OFI

                                                                                                                                                                                                                                                                                                                                                                                              7                                                                                              7



 5
                                 3                                                                                                                                                                                                                                                                                                                                                                                       3


                                                                                                                                                                                 1                                                        1                                                                            1                                                                                                                                                                                                                                             1                                         1                                    1
           0                                             0                   0                      0                    0                       0                                                            0                                                   0                      0                                                                   0                                                                                                                                                                      0                                                                                                                                          0                       0          0
 0
     QMS-General - 4.1
                         QMS-Documentation - 4.2
                                                   Management - 5.1




                                                                                                                                                                          Management Review - 5.6
                                                                      Customer Focus - 5.2


                                                                                                                    Planning - 5.4
                                                                                                                                     Resp/Authority/Communication - 5.5


                                                                                                                                                                                                    Provisions & Resources - 6.1
                                                                                                                                                                                                                                   Human Resources - 6.2
                                                                                                                                                                                                                                                           Infrastructure - 6.3
                                                                                                                                                                                                                                                                                  Work Environment - 6.4
                                                                                             Quality Policy - 5.3




                                                                                                                                                                                                                                                                                                           Planning of Product Realization - 7.1
                                                                                                                                                                                                                                                                                                                                                   Customer-Related Processes - 7.2
                                                                                                                                                                                                                                                                                                                                                                                      Design & Development - 7.3
                                                                                                                                                                                                                                                                                                                                                                                                                   Purchasing - 7.4
                                                                                                                                                                                                                                                                                                                                                                                                                                      Production and Service Provision - 7.5
                                                                                                                                                                                                                                                                                                                                                                                                                                                                               Monitoring & Measurement Equipment - 7.6




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             Analysis of Data - 8.4
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      Continous Improvement - 8.5
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    Regulatory
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          Measurement & Analysis - 8.1
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Monitoring & Measurement Processes - 8.2
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    Control of Nonconforming Product - 8.3




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 OFI
Human Resources (6.2)
Competence, Training, and Awareness (6.2.2). The Honeywell training program was
inadequate. Honeywell does not have an overarching procedure to govern the training
requirements, training roles and responsibilities, and records retention requirements.
The Human Resource Manager explained that although Honeywell delegated the various
assembly floor training needs and records to the respective floor managers; in practice,
each manager had a different approach. As a result, not all records and certifications were
retained or readily accessible. Additionally, we noted personnel were manufacturing
F-35 hardware with expired soldering and ESD certifications. Training ensures personnel
proficiency in industry best practices, techniques, and methods. Without a rigorous
training program, Honeywell cannot ensure the products delivered to BAE conform to
expected workmanship standards.




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      DODIG-2013-140 │ 45
Contractor Assessments



                 Planning of Product Realization (7.1)
                 Configuration Management (7.1.3). Honeywell did not control software configuration
                 changes made to the oxygen monitor software. Honeywell was making changes to the
                 released oxygen monitor software using the developmental change control processes
                 without the necessary reviews, classifications, and verifications required for released
                 software.          We found that changes were approved without identifying the actual
                 change implemented, the severity of change, the impact on software requirements or
                 specifications, and the level of retesting required for the change. Honeywell’s software
                 configuration control process poses a risk to system integration and performance because
                 the changes were not evaluated by engineering and management.


                 Design and Development (7.3)
                 Design and Development Inputs (7.3.2). Honeywell conducted Preliminary Design
                 Reviews (PDRs) and CDRs for the life support system, chemical biological filtered air
                 system subassembly, and pilot interface connector without approved specifications. We
                 noted that the Oxygen Monitor system software functions were not traceable to system
                 requirements and have not been validated or verified. These functions included self-
                 diagnostics, monitoring and control, and operating system interface standards. Without
                 requirements definition, traceability, and verification; Honeywell cannot ensure all the
                 F-35 requirements for production have been met.

                 Design and Development Outputs (7.3.3). Honeywell’s software Version Description
                 Document (VDD)9 for the Oxygen Monitor system software does not adequately reflect
                 the software configuration changes implemented and lacks other pertinent information
                 regarding the released software build. We found that the VDD did not identify software
                 configuration changes in the software baseline, did not state the new firmware
                 configuration tested, and did not reference the required interface specifications.
                 As a primary document used for configuration identification of the software, it
                 lacked the principal elements to provide BAE sufficient insight into Honeywell’s
                 software configuration.

                 Design and Development Review (7.3.4).                                      We documented that the chemical
                 and biological filtered air supply test readiness review was not conducted prior to
                 qualification testing in accordance with Honeywell’s procedure. The purpose of a test
                 readiness review is to provide management with the assurance that the requirements,


                 	9	
                       Institute of Electrical and Electronics Engineers STD 610.12 defines VDD as, “The document that accompanies and
                       identifies a given version of a system or component. Typical contents include an inventory of system or component
                       parts, identification of changes incorporated into this version, and installation and operating information unique to the
                       version described.”




46 │ DODIG-2013-140
                                                                                Contractor Assessments



proposed method of verification, the test methods, and equipment to be tested are
mature enough to commence testing. We also found that there were still 13 of 14
open action items from CDR.        Open action items included updating the technical
procurement specification to include acceptance testing and cleanliness level
requirements, obtaining critical technical analysis for system safety, and determining
how to protect against contamination and electromagnetic interference. Honeywell
management elected to proceed into initial production without the chief engineer’s
approval in accordance with their design review procedure.


Purchasing (7.4)
We found circuit board assembly purchase orders that did not include the
supplemental requirements for electronic and electrical components, such as defining
lead and lead-free finishes, electronic solder requirements, and electronic markings. We
also found that personnel were not verifying product technical data sheets as part of the
product acceptance process. Specifically, Honeywell accepted a pressure switch gage
using only a certificate of conformance even though an acceptance test data sheet was
also required for acceptance. The lack of supplier performance requirement verification
could result in quality escapes.


Production and Service Provision (7.5)
Control of Production and Service Provision (7.5.1).          We found that personnel
responsible for performing sampling of supplier components were not following the
required sampling plan. For instance, the sampling plan required a minimum sample
of 20 items; but only 1 item was sampled. In another instance, an operator removed a
protective film prior to machining operations in contradiction of the drawing notes.

We found that the procedures for handling of environmentally sensitive material were
insufficient. Honeywell personnel were not: recording and monitoring sealing compound
pot life, recording high-strength adhesive film freezer out times, and recording and
monitoring cure times for sealing compounds. Additionally, Honeywell personnel did not
maintain production equipment and tooling in accordance with established procedures:
soldering irons were not checked on a monthly basis, visual and leak test record sheets
were not kept, equipment safety checks were not always performed, and production
tooling was inadequately identified.

Preservation of Product (7.5.5).       Honeywell was not ensuring personnel were
following ESD and FOD procedures in the manufacturing and test areas. Oxygen monitor
controllers were not stored in ESD-approved bags, static generators (e.g., a computer




                                                                                        DODIG-2013-140 │ 47
Contractor Assessments



                 keyboard, telephone, and computer monitor) were in close proximity to ESD mats, and a
                 nonconductive production floor was used where ESD-sensitive items were processed. In
                 the FOD-control area, we found that tools were not placed back on shadow boards and
                 there was no accountability of piece parts (small nuts, bolts). Industry experience has
                 shown that strict adherence to ESD and FOD procedures can prevent costly latent defects
                 and hardware nonconformances.


                 Control of Monitoring and Measuring Equipment (7.6)
                 Honeywell’s control of monitoring and measuring equipment was inadequate as
                 evidenced by the following: uncontrolled environmental conditions in the calibration
                 laboratory and processing areas; uncalibrated tools in production, test, inspection, and
                 metrology areas; and no maintenance of software for measuring equipment. We found
                 uncalibrated pin gages in the receiving inspection area, a digital voltmeter in the test lab,
                 air pressure gauges in the OBOGS assembly area, and a supply pressure regulator in the
                 calibration lab.


                 Control of Nonconforming Product (8.3)
                 Honeywell was not accurately completing quality notifications (QNs) used to
                 document hardware nonconformances. We found that two nonconformances were
                 dispositioned as repaired; however, a repair had not occurred.             Honeywell also
                 dispositioned another QN without documenting the root cause and corrective action.
                 Accurate QNs are necessary to prevent recurrence of the nonconformance.


                 Analysis of Data (8.4)
                 Honeywell personnel implemented acceptance test procedural changes without the
                 required BAE review and approval for the oxygen concentrator and OBOGS. Additionally,
                 several ATP waivers/deviations were incorrectly categorized as minor rather than
                 major. Requirement changes defined in either ATPs or waivers/deviations directly affect
                 product performance and should be evaluated by BAE engineering.


                 BAE Systems Program Management at Honeywell
                 In performing quality assurance assessments of a supplier, we identified some findings
                 against Honeywell’s customer, BAE. We documented that BAE’s SOW to Honeywell
                 for LRIP 4 and LRIP 5 were not under configuration control and did not contain the
                 appropriate document number. As a result, SOWs could not be traced to the appropriate
                 contract, creating a risk that Honeywell may be manufacturing products to obsolete or
                 incorrect program requirements.




48 │ DODIG-2013-140
                                                                                 Contractor Assessments



Honeywell Assessment Summary
Our assessment indicated an immature product design and production processes.
The design review process allowed the OBOGS program to enter CDR without firm
specifications, exit CDR with 13 open actions, and allowed production to proceed
with unapproved design documents.           Additionally, verification of hardware and
software performance requirements was not conducted to the approved acceptance
test requirements.

Honeywell failed to communicate effectively to BAE the impact of changes and
variances to the design. In several instances, Honeywell failed to obtain the necessary
review and approval from BAE for changes to the Oxygen Concentrator acceptance test
procedures and Oxygen Monitor software systems. Additionally, several variances were
incorrectly categorized as minor when they should have been major, and should have
been submitted to BAE for approval.

Process discipline issues were prevalent throughout the facility. We found numerous
procedural and implementation issues in the areas of ESD, FOD, calibration, and control of
LSLM. The issues highlight quality assurance and process discipline concerns that could
introduce unscheduled rework and repair, leading to cost overruns and schedule slips.


United Technologies Corporation, Aerospace Systems
(Fort Worth, Texas, and Independence, Ohio)

UTAS is a Lockheed Martin subcontractor that manufactures the landing gear for the F-35
Lighting Aircraft. The landing gear assembly line recently moved from Independence,
Ohio, to Fort Worth, Texas. The move began in January 2012, with the first landing gear
assembly delivered from the new facility in October 2012. In July 2012, UTAS purchased
the Goodrich division that was the original manufacturer of the F-35 landing gear. At the
time of our assessment, all the engineering offices were still in Ohio; only the assembly
line and supporting activities had moved to  Texas. UTAS provides landing gear for all
three F-35 variants: CTOL, CV, and STOVL.

The assessment of UTAS resulted in 51 findings that identified deficiencies in UTAS’
implementation of the AS9100 Quality Management System. The findings identified
issues with DCMA delegations and their implementation along with Lockheed Martin’s
insufficient supply chain management of critical suppliers. Figure 13 provides UTAS
findings by AS9100 clause with the following sections summarizing significant issues
documented during the assessment.




                                                                                         DODIG-2013-140 │ 49
Contractor Assessments



                 Figure 13. UTAS Findings
                 No. of Findings
                 10                                                                                                                                                                                                                                                                                                                                                                                                    10
                                                                                                                                                                                                                                                                                                                                                                                                                                                                    9

                                                                                                                                                                                                                                                                                                                                                                                                                8
                  8                                                                                                             Minor Findings
                                                                                                                                Major Findings
                                                                                                                                OFI
                  6
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             5

                                                                                                                                                                                                                                                                                                                                        4                                                                                                                                                                                                                                                                                        4
                  4
                                                  3

                                                                                                                                                                                                                                                                                                                                                                               2                                                                                                                                                                                                                                                                                                              2                         2
                  2
                                                                                                                                                                                                                                                           1                                                                                                                                                                                                                                                                                                                           1

                            0                                            0                    0                      0                    0                       0                                0                           0                                                   0                      0                                                                                                                                                                                                                                         0                                                                                                                0                                                            0
                  0
                      QMS-General - 4.1
                                          QMS-Documentation - 4.2
                                                                    Management - 5.1
                                                                                       Customer Focus - 5.2
                                                                                                              Quality Policy - 5.3
                                                                                                                                     Planning - 5.4
                                                                                                                                                      Resp/Authority/Communication - 5.5
                                                                                                                                                                                           Management Review - 5.6
                                                                                                                                                                                                                     Provisions & Resources - 6.1
                                                                                                                                                                                                                                                    Human Resources - 6.2
                                                                                                                                                                                                                                                                            Infrastructure - 6.3
                                                                                                                                                                                                                                                                                                   Work Environment - 6.4
                                                                                                                                                                                                                                                                                                                            Planning of Product Realization - 7.1
                                                                                                                                                                                                                                                                                                                                                                    Customer-Related Processes - 7.2
                                                                                                                                                                                                                                                                                                                                                                                                       Design & Development - 7.3
                                                                                                                                                                                                                                                                                                                                                                                                                                    Purchasing - 7.4
                                                                                                                                                                                                                                                                                                                                                                                                                                                       Production and Service Provision - 7.5
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                Monitoring & Measurement Equipment - 7.6
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           Measurement & Analysis - 8.1
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          Monitoring & Measurement Processes - 8.2
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     Control of Nonconforming Product - 8.3
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Analysis of Data - 8.4
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       Continous Improvement - 8.5
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     Regulatory
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  OFI
                 Documentation Requirements (4.2)
                 We found that the quality assurance inspection control plans used in the inspection
                 of hardware were not under configuration control. Four quality assurance inspection
                 control plans found on the production floor had been updated by engineering but not
                 signed or released in accordance with UTAS procedures. Thirty-seven other documents,
                 such as quality assurance documents, landing gear documents, and engineering quality
                 assurance procedures; had not been reviewed for adequacy or released in accordance
                 with their procedures.


                 Human Resources (6.2)
                 Competence, Training, and Awareness (6.2.2). We found that UTAS used multiple
                 training systems that were not maintained, resulting in incomplete training requirements,
                 incomplete records, and the employees’ training effectiveness not being assessed. We
                 found that training records were incomplete, lacking training requirements and due dates.
                 The document system left uncertainty that employees had all the necessary training.



50 │ DODIG-2013-140
                                                                                 Contractor Assessments



Planning of Product Realization (7.1)
We documented some tools and equipment that had not been proof loaded. Specifically,
one crane with various riggings was not proof loaded or certified for the F-35 landing gear
assemblies. This did not meet safety and occupational health requirements.

Configuration Management (7.1.3). We found that UTAS did not certify or update its
configuration management policy to reflect the Lockheed Martin requirements. Change
control, classification of changes, and notification to the customer of pending changes
were not accomplished. For instance, Lockheed Martin’s configuration management
requirements stated that a change to solder composition should be a major change;
however, this requirement was not included in the UTAS configuration management plan.


Customer-Related Processes (7.2)
Customer Communication (7.2.3). UTAS Fort Worth did not submit minor variances
to DCMA for review and approval. Lockheed Martin requires that both major and
minor variances be submitted to DCMA for evaluation to ensure the classification is
correct and is appropriately dispositioned. We found that minor variances had not been
submitted; therefore, the classification of nonconformances and dispositions may not be
technically correct.


Design and Development (7.3)
We found that UTAS had not completed the corrosion protection plan for the F-35
CV landing gear in accordance with the SOW. The corrosion protection plan is necessary
to define adequate design and maintenance requirements for the landing gear to ensure
performance in a high humidity and salt spray environment. We also identified that UTAS
had not received Lockheed Martin’s approval for 10 item development specifications
and an interface control document (ICD) prior to the start of LRIP. Items such as several
actuators and wire harnesses, a swivel, switch, pressure transducer, fluid sensor, and the
electrical interface drawing had not been approved. The unapproved item development
specifications dated back to 2004, and the unapproved electrical ICD dated back to 2009.

Additionally, we identified that the UTAS testing program did not ensure all technical
performance requirements were verified. For example, not all Brake/Skid Control
System performance-based specification requirements were part of the qualification test
program.    In addition, the maintainability and health management performance-
based requirements had not been demonstrated as required by the performance-
based specification.




                                                                                          DODIG-2013-140 │ 51
Contractor Assessments



                 Purchasing (7.4)
                 UTAS was not flowing down all applicable F-35 Program unique quality assurance
                 requirements to its suppliers.                      UTAS purchase orders did not include Lockheed
                 Martin supplier quality assurance requirements, such as quality management system
                 requirements, calibration requirements, and Government oversight requirements.
                 We also noted numerous deficiencies with UTAS’ review and approval of manufacturing
                 plans. UTAS did not maintain required monthly supplier quality assurance metrics;
                 therefore, supply chain risks were not identified.

                 We noted inconsistencies in the information contained in the UTAS SAP10 system versus
                 the information residing in the supplier quality assurance database.  The process
                 for supplier rating, certification, and decertification did not follow UTAS procedures
                 for procuring parts from qualified and authorized suppliers.  Insufficient supplier
                 management practices may produce defective parts that go undetected.


                 Product and Service Provision (7.5)
                 Control of Production (7.5.1). We documented that the UTAS master-tooling list
                 had not been updated and was inaccurate. The calibration vendor for UTAS identified
                 199 UTAS tools in its calibration service purchase order; however, UTAS’ master-tooling
                 list identified only 128. In addition, many tools on the UTAS production floor including
                 the acceptance testing fixtures and numerous small tools and gauges showed no evidence
                 of inspection by the quality assurance organization prior to use in production.

                 UTAS was not following procedures for FAIs. Specifically, UTAS did not ensure that F-35
                 landing gear system FAI data packages were consistently reviewed and approved and
                 contained the necessary supporting data. FAI is a process used to verify and document
                 all essential characteristics on one of the first production components and provides
                 confidence that production processes, documentation, and tooling are sufficient to
                 begin production. Several FAI packages were categorized as “FAI Not Complete,” with no
                 corresponding data to explain why they had not been completed.

                 Preservation of Product (7.5.5). UTAS procedures for FOD, ESD, and LSLM did not
                 ensure product protection; personnel were also not always implementing them correctly.
                 In one finding, FOD-controls were not adequate to prevent FOD from being introduced
                 into the product. Examples of FOD objects noted in the F-35 assembly area include soda
                 bottles on tool/storage racks, a loose protective cap, residual tape, a small plastic bag,


                 	10	
                        SAP is a German corporation that develops business enterprise software.




52 │ DODIG-2013-140
                                                                                 Contractor Assessments



a part identification label, a cigar, and sunflower seeds. We noted that UTAS did not
have an ESD workstation or instructions for handling ESD-sensitive components in the
production area. The UTAS F-35 product line contains ESD-sensitive components such as
the brake control unit and the pressure transducer. We also identified several examples of
inappropriately labeled LSLMs with missing expiration dates. Examples included O-ring
lubricant, sealing compound, red torque lacquer, and leak detection solution.


Control of Monitoring and Measurement Equipment (7.6)
We documented several findings related to the control of monitoring and measurement
equipment. We found a brake positioning transducer that was calibrated, but the
inspection report failed to provide the actual calibration values; therefore, it could not
be determined if the tool was capable of making reliable measurements. On a transducer
jig, the flatness/parallelism requirement was not verified as part of the inspection
procedure and was not recorded in the report. Another finding documented that the
tool identification information for torque operations was not recorded on multiple shop
travelers as required for traceability. Several additional findings documented deficiencies
with the inventory list, identification methods, and recordkeeping. Although there were
processes to control monitoring and measurement equipment, the findings indicate that
improvements are necessary to produce a reliable product.


Monitoring and Measurement (8.2)
Internal Audit (8.2.2). The assessment documented one major finding related to internal
audits. No product audits have been performed on F-35 landing gear assemblies at the
UTAS Fort Worth facility to ensure hardware meets end-item requirements. Failure to
complete product audits as planned increases risk of deficient processes.


Control of Nonconforming Product (8.3)
We found that nonconforming hardware was dispositioned by unauthorized personnel
instead of the required engineering representative, and did not go through the material
review process. In addition, one of the nonconforming items we evaluated could not
be located.

UTAS was not tracking corrective actions to closure for product nonconformances and
variances; therefore, UTAS was unaware of the status of these corrective actions. In
addition, we found that UTAS was not performing root cause and corrective action for
scrapped F-35 parts and was not submitting variances and scrap dispositions to DCMA as
required. Insufficient corrective action and lack of Government oversight increases the
risk of additional nonconforming items affecting product reliability and program cost.



                                                                                         DODIG-2013-140 │ 53
Contractor Assessments



                 Lockheed Martin Program Management at UTAS
                 We reviewed the effectiveness of Lockheed Martin program management as part of
                 our assessment at UTAS. Lockheed Martin flowed down the F-35 Brake/Skid Control
                 System performance-based specification with incomplete and conflicting specification
                 requirements. We also found at the time of our assessment that Lockheed Martin had not
                 funded root cause and corrective action analysis for failed UTAS hardware. Failed parts
                 and detailed information of the field failure was not always provided back to UTAS for
                 analysis; therefore, UTAS was unable to determine root cause.

                 We found that there was no evidence that Lockheed Martin had ever provided
                 “concurrence in classification” for minor engineering changes submitted by UTAS. UTAS
                 personnel indicated that after 30 days, they assumed that Lockheed Martin agreed with
                 the classification. Lack of Lockheed Martin agreement with UTAS-initiated minor changes
                 can result in changes being incorporated and implemented without the proper review
                 and approval.


                 DCMA Oversight
                 We found that DCMA Cleveland did not provide the required Government oversight of
                 UTAS waivers, deviations, and nonconformances as required by the LOD. Additionally,
                 DMCA Cleveland was not delegating nonconforming material review responsibilities to
                 the appropriate DCMA offices located at UTAS suppliers.


                 UTAS Assessment Summary
                 We found a lack of disciplined process controls for FOD, ESD, and LSLM. This could result
                 in nonconforming flight hardware or latent defects.

                 Several key design and development tasks were not completed. Although the program
                 has transitioned to LRIP, UTAS had not received Lockheed Martin’s approval for
                 10 development specifications and ICDs. UTAS also had not verified technical performance
                 requirements testing prior to the start of LRIP.

                 UTAS did not conduct internal audits at the Fort Worth facility, and was not tracking
                 corrective actions to closure for product nonconformances and variances. The lack of
                 an internal auditing program and disciplined corrective action process could result in
                 quality assurance issues and additional cost growth to the program.




54 │ DODIG-2013-140
                                                                   Overall Findings and Recommendations




Overall Findings and Recommendations
The F-35 Program did not sufficiently implement or flow down technical and quality
management system requirements to prevent the fielding of nonconforming hardware
and software. This could adversely affect aircraft performance, reliability, maintainability,
and ultimately program cost. Lockheed Martin and its subcontractors did not follow
disciplined AS9100 Quality Management System practices, as evidenced by 363 findings,
which contained 719 issues.



A. Insufficient Rigor in Design, Manufacturing, and
   Quality Assurance Processes
            The F-35 JPO, Lockheed Martin, and its subcontractors were not
            ensuring that the necessary quality assurance process controls
            and disciplines were in place to produce a consistent and reliable
            product. This lack of process discipline and attention to detail
            creates an elevated risk of delivering nonconforming aircraft to
            the warfighter.

The root cause of nearly half of the findings was the lack of adherence to established
processes and procedures or insufficient detail in documentation. The major process
discipline issues were in the following areas.

         •	 Planning for Product Realization – Production planning lacked the
            appropriate level of detail, design changes were uncontrolled or unapproved,
            and system-level plans were not maintained. As a result, documentation
            did not always match the processes and equipment required to perform the
            manufacturing operation.

         •	 Design and Development – Contractor personnel were using insufficient or
            unapproved test plans and procedures. Systems engineering technical review
            entrance and/or exit criteria were not met. The criteria ensure the program
            is ready to proceed to the next production milestone or test event.

         •	 Software Development – In some cases, software design and development
            activities lacked definition and rigorous adherence to documented
            procedures and processes, resulting in software development requirements
            not implemented, traceable, and verified.




                                                                                            DODIG-2013-140 │ 55
Overall Findings and Recommendations



                            •	 Manufacturing Operations – Contractor personnel were not following
                              documented manufacturing and assembly process instructions necessary
                              to ensure conformance to end-item requirements, product protection, and
                              material control.

                            •	 Production Tooling – Uncontrolled and unproven tooling was in use on the
                              production floor, resulting in product nonconformances.

                            •	 Calibration of Measurement Systems – Multiple sites had inadequate
                              calibration management systems. Contractors were not performing out-
                              of-tolerance condition analyses, using sufficient calibration procedures,
                              and removing expired calibrated equipment from use. Accurate test and
                              measurement equipment is necessary to provide accurate measurements that
                              determine product acceptability.

                            •	 Engineering Change Management – Lockheed Martin was not reviewing
                              and approving all subcontractor submittals for variances and engineering
                              change requests for which Lockheed Martin is the sole design authority.
                              Additionally, Lockheed Martin was not providing concurrence for engineering
                              change classifications for subcontractor engineering changes.

                 Recommendation A—Management Comments and
                 Our Response
                 We recommend that the Joint Program Office:
                      1.	     Ensure compliance with AS9100 throughout the F-35 supply chain.

                 Joint Program Office Comments
                 JPO agreed and stated:

                              AS9100 (Quality Management Systems – Requirements  for
                              Aviation,   Space,   and    Defense    Organizations)     is    an
                              F-35   contractual   requirement.      The   prime      contractor
                              (Lockheed Martin (LM)) is AS9100 certified and has flowed
                              down this quality requirement to its supply chain.        AS9100
                              certification is granted by a third party accredited entity.
                              Periodic reviews are held by that third party entity to maintain
                              certification. Annual self audits are conducted by both the
                              prime contractor and its suppliers to monitor compliance
                              within their respective facilities. The Government has had




56 │ DODIG-2013-140
                                                            Overall Findings and Recommendations



           limited insight to results of these self audits, however, DCMA
           performs onsite process reviews as part of its oversight
           activity. DCMA at Lockheed Martin Fort Worth reorganized in
           February 2013 to provide more focus and inspection
           emphasis to ensure AS9100 compliance and a quality
           product.      Additionally, JPO reviews AS9100 certification
           status of critical suppliers during their annual Production
           Readiness Reviews (PRR). These reviews serve as a LRIP
           risk management tool conducted with the prime contractor
           and selected major critical suppliers, covering Technical,
           Production and Sustainment requirements. Suppliers must
           demonstrate consistent adherence of product compliant to
           contractual (AS9100) and applicable statutory and regulatory
           requirements.     Findings of this IG audit have caused both
           contractor and Government entities to adjust the frequency
           and scope of independent audits to ensure greater insight to
           AS9100 compliance.


Our Response
The comments from JPO are responsive, and the actions taken appear to meet the
intent of the recommendation.

     2.	   Ensure that Lockheed Martin approves all design and material review
           board changes and variances with Government concurrence.

Joint Program Office Comments
JPO agreed and stated:

           Current F-35 Program plans (such as the Configuration
           Management Plan) require that all major design changes
           and variances for production aircraft receive Government
           concurrence.      The Government maintains limited insight
           of the contractor’s Material Review Board (MRB) process.
           Subsequently, the Government has reprioritized and refined its
           engagement in that process to ensure improved effectiveness.
           For nonconformances that require MRB disposition, JPO
           delegates the approval of Class II (minor) changes to DCMA
           and reviews all Class I changes that affect form, fit, or




                                                                                 DODIG-2013-140 │ 57
Overall Findings and Recommendations



                             function. A Class I change request is dispositioned through
                             the JPO Change Review Board (JCRB), which performs a
                             technical and business assessment and provides a written
                             recommendation to the Joint Configuration Control Board
                             (JCCB).   With the input of major stakeholders, the JCCB
                             adjudicates the recommended change and provides that
                             decision to Contracts, who notifies the Prime Contractor to
                             proceed in incorporating the change.

                             Any subcontractor submittal for variances and engineering
                             change requests, for which Lockheed Martin is the sole
                             design authority, must be go through Lockheed Martin’s
                             change control boards for review and approval. Furthermore,
                             Lockheed Martin must provide concurrence for engineering
                             changes relating to subcontractor owned designs. Various
                             configuration management checks and balances (such as
                             Physical and Functional Configuration Audits) are in place to
                             ensure control.


                 Our Response
                 The comments from JPO are responsive. The actions taken appear to meet the intent
                 of the recommendation; however, the DoD OIG suggests that the JPO and
                 Lockheed Martin maintain cognizance of class II changes.

                       3.	   Perform process proofing of all critical processes to include first
                             article inspections.

                 Joint Program Office Comments
                 JPO partially agreed and stated:

                             The Government does not have the resources to perform
                             process proofing of all critical processes. Responsibility and
                             accountability rests on the prime contractor, with oversight
                             from the Government. Process proofing and First Article
                             Inspections are Program Plan and contractual requirements.
                             The Government performs audits of process compliance to
                             ensure the contractor is controlling critical operations. The




58 │ DODIG-2013-140
                                                               Overall Findings and Recommendations



            Government closely monitors scrap, rework, and repair to
            ensure the contractor is conducting proper root cause analyses
            to implement appropriate corrective actions. The Government
            also monitors the quality of delivered product to ensure control
            of escaped defects.

            JPO requires the contractor to perform First Article Inspections
            (FAI) and process proofing as part of their implementation
            of AS9100 and the F-35 Program Quality Management Plan.
            Over 27,500 original baseline FAIs have been completed and
            approximately 400 more delta FAIs will be performed for
            parts due to concurrency, producibility, process changes,
            etc.    In addition, the prime contractor has implemented
            variation management, which is an advanced quality system
            technique that focuses on defect prevention and continuous
            improvement through the identification of key product and
            process characteristics.   This allows greater control of the
            manufacturing process.


Our Response
Although we understand the concern for Government resources, we still recommend
that JPO ensure process proofing of all critical processes. A widely accepted industry
handbook on quality, Juran’s Quality Handbook, defines critical properties as: “Critical
properties are those properties for which the made-product total variability is so
wide as to cause persistent difficulty in meeting current or near-term anticipated
customer needs.” The Government must ensure that the contractor performs some
level of process proofing to prevent, as Juran’s Quality Handbook states, “variability
in critical product characteristics, which is the enemy of quality of conformance.”

As evidenced by the findings, process proofing had not been accomplished to the
level to ensure product repeatability. It is the DoD OIG’s position that without
process proofing of all critical processes, quality assurance may not be
achieved. Therefore, we request further comments from the JPO in response to
the final report.

      4.	   Modify its contracts to include a quality escape clause to ensure the
            Government does not pay for nonconforming product.




                                                                                       DODIG-2013-140 │ 59
Overall Findings and Recommendations



                 Joint Program Office Comments
                 JPO agreed and stated:

                            JPO concurs that greater incentives should be taken to
                            preclude the cost of poor quality. Major non-conformances
                            that do not meet engineering specification are identified
                            and      adjudicated   for     acceptance    or        rejection    with
                            considerations/withholds placed on a variance.                     Minor
                            non-conformances are reworked, repaired, or used as is.
                            The program has transitioned to fixed price type contacts
                            with a 0/100 share ratio and clauses will prescribe
                            to    applicable   FAR       [Federal    Acquisition       Regulation]
                            requirements.      Along with considerations/withholds on
                            non-conformances, this contract structure will facilitate
                            greater incentive by the contractor to provide quality
                            assurance in order to maintain cost and schedule obligations
                            without over running their negotiated budget.                       The
                            contractor will absorb a level of cost for poor quality. In
                            addition, the JPO continues to establish quality performance
                            targets with commitments from JPO and LM senior
                            leadership.     These targets are based upon continuous
                            learning in fabrication and assembly operations, corrective
                            action     implementation,      in    addition    to     product    and
                            process improvements as a result of affordability and
                            concurrency changes.


                 Our Response
                 The comments from JPO are responsive, and the actions taken appear to meet the
                 intent of the recommendation.

                      5.	   Assess the impacts and risks to all delivered aircraft for all findings.

                 Joint Program Office Comments
                 JPO agreed and stated:

                            The impacts and risks of all findings were assessed as
                            part of the Corrective Action Request (CAR)/Corrective
                            Action Plan (CAP) process.           When a CAR was written, the




60 │ DODIG-2013-140
                                                                   Overall Findings and Recommendations



            F-35 fleet was assessed for impact. Concurrence on each CAP
            considered effectivity, safety, and contract elements.         This
            determined priority and timing required to implement the
            corrective action into the affected aircraft as appropriate.


Our Response
The comments from JPO are responsive, and the actions taken appear to meet the intent
of the recommendation.


B. Critical Safety Item Program Not Implemented
            The F-35 JPO did not include CSI requirements on the Lockheed
            Martin prime contract as required by Public Law and DoD
            policy. Aircraft CSIs were not identified and critical parts were
            not manufactured with CSI controls and verifications. Delivered
            aircraft may pose an increased safety of flight risk due to the lack
            of critical process control.

JPO has not flowed down a contractual requirement to Lockheed Martin (and
subsequently, its subtier suppliers) to implement a CSI management program in
accordance with Public Law and DoD policy. A CSI is a part, assembly, or support
equipment whose failure could cause loss of life, permanent disability or major
injury, loss of a system, or significant equipment damage. Special attention should be
paid to CSIs to prevent the potential catastrophic or critical consequences of failure.
CSIs   require   special    handling,      engineering,   manufacturing,   and     inspection
documentation to control and ensure safety of flight.

Public Law 108-136, Section 802, “Quality control in procurement of aviation CSIs and
related services,” requires DoD to prescribe a quality control policy for the procurement
of aviation CSIs. Joint Service CSI Instruction, “Management of Aviation Critical Safety
Items,” implements the DoD CSI program and establishes the policies, procedures,
and responsibilities to manage CSI. The Joint Aeronautical Commanders Group, “JACG
Aviation Critical Safety Item Handbook,” implements the policies in the Joint Service CSI
Instruction and describes the technical and quality assurance requirements for a Prime
Manufacturer CSI program. Without a CSI program, there is an increased safety risk to the
aircraft and warfighter.




                                                                                            DODIG-2013-140 │ 61
Overall Findings and Recommendations



                 Recommendation B—Management Comments and
                 Our Response
                 We recommend that the Joint Program Office:

                      1.	   Implement an aviation critical safety item program that meets the
                            requirements of Public Law and DoD policy, which would include
                            flow down of requirements for a critical safety item program to
                            Lockheed Martin and its subcontractors.

                 Joint Program Office Comments
                 JPO agreed and stated:

                            JPO is working with the prime contractor in developing
                            a Request for Proposal (RFP) for a two-phased CSI
                            Non Recurring Engineering (NRE) approach. This will require
                            the development of comprehensive CSI requirements which
                            will be added to the SDD contract’s Statement of Work. These
                            requirements will address the identification of critical
                            characteristics that enable compliance at the prime contractor
                            and throughout its supply base. Once the SDD NRE efforts
                            are completed, the full scope of the F-35 CSI program will
                            be included in future production and sustainment contracts.
                            Commencement of certain initial recurring tasks will be
                            implemented using the LRIP 6 contract. In the interim, the
                            contractors’ integrity and quality programs are providing
                            assurance for continued aviation safety.


                 Our Response
                 The comments from JPO are responsive, and the actions appear to meet the intent of
                 the recommendation.

                      2.	   Assess the impacts and risks to all delivered aircraft for critical safety
                            item deficiencies.




62 │ DODIG-2013-140
                                                               Overall Findings and Recommendations



Joint Program Office Comments
JPO agreed and stated:

           Deficiencies and impacts to critical parts are identified and
           assessed during quality assurance practices and testing
           operations as part of the SDD design and product verification
           processes.    If safety issues and limitations are discovered,
           changes are initiated and incorporated as warranted to the test
           and production aircraft. Initial and continued airworthiness
           is a major focus of the F-35 Class Desk, Airworthiness Team,
           Integrated Test Team, and Integrated Product Teams.          The
           SDD test aircraft have more than 5,000 flight hours.         The
           combined F-35 fleet has accumulated more than 7,000 flight
           hours. This is not to say that there are no significant issues or
           discoveries. Rather, there is an upfront understanding whether
           any new discovery poses an increased safety risk. If necessary,
           proper actions are taken, such as suspending flight operations,
           directing inspections, adding flight limitations or restrictions,
           and directing hardware or software modifications to mitigate
           the safety risks.


Our Response
The comments from JPO do not meet the intent of the recommendation.
Per our findings the JPO did not create a CSI program in accordance with
Public Law 108-136, Section 802.         The DoD OIG desires the identification
and confirmation from the Engineering Support Activity that all safety risks for
aircraft manufactured and delivered to the Government using the methodology
identified in the CSI handbook is complete.          Therefore, we request further
comments from the JPO in response to the final report.


C. Requirements Not Flowed Down
           JPO and Lockheed Martin did not ensure that all essential quality
           assurance and technical requirements were flowed down to
           the supply chain. This resulted in suppliers providing critical
           F-35 products that may not meet intended performance and
           reliability requirements.




                                                                                    DODIG-2013-140 │ 63
Overall Findings and Recommendations



                 We noted a significant number of findings in this area. These include the following.

                          •	 First Article Inspection – Lockheed Martin flowed down conflicting
                            requirements for FAIs to its suppliers.         The lack of definitive FAI
                            requirements was affecting the suppliers’ ability to qualify its processes
                            and ensure delivery of compliant product.

                          •	 Configuration Control – Lack of flow down and communication between
                            Lockheed Martin and suppliers was causing unclear configuration
                            management and status accounting requirements. Configuration issues at
                            suppliers were resulting in products with unknown configurations.

                          •	 Design and Development Requirements – Lockheed Martin did not flow
                            down all the necessary design and development requirements and ensure
                            requirements were verified and traceable. This impacted the suppliers’ ability
                            to develop products that meet expected performance requirements.

                          •	 Diminishing Manufacturing Supply and Materiel Shortages – JPO had not
                            funded Lockheed Martin to implement a DMSMS program. As a result, the
                            program was not proactively forecasting for part obsolescence.

                 Recommendation C—Management Comments and Our
                 Response
                 We recommend that the Joint Program Office perform technical and quality
                 assurance requirement flow down and verification throughout the F-35
                 supply chain.


                 Joint Program Office Comments
                 JPO partially agreed and stated::

                            The Government does not have the responsibility or resources
                            to perform requirement flow down verification throughout the
                            prime contractor’s entire supply chain. The prime contractor
                            is responsible and accountable, with oversight from the
                            Government.      The Government performs spot checks and
                            conducts surveillance to ensure the contractor is flowing
                            down requirements to its subcontractors. The Government




64 │ DODIG-2013-140
                                                               Overall Findings and Recommendations



           monitors this closely through participation in Design Reviews,
           Production     Readiness   Reviews,    Structural   Equivalency
           Reviews, Program Management Reviews, production floor
           inspections, configuration audits, etc. On site surveillance is
           primarily performed by DCMA to ensure the contractor and its
           subcontractors are complying with contractual requirements.


Our Response
The DoD OIG does not agree that the Government does not have the responsibility
to ensure that the prime contractor and the supply chain meet requirements. In
accordance with DoDD 5000.01, section 3.5, the Program Manager has the responsibility
for and authority to accomplish program objectives for development, production, and
sustainment to meet the user’s operational needs. The intent of our recommendation
is for JPO to ensure that technical and quality assurance requirement flow down occurs
by establishing the appropriate contractual requirements; such as having the prime
contractor create a database showing each supplier and all applicable performance
and quality assurance requirements. Contractual deliverables such as database access
and various monthly metrics would provide the Government additional confidence
that this has occurred. The lack of a requirement flow down process to date has
hampered the program’s understanding of supplier conformance to performance and
quality contractual requirements. Therefore, we request further comments from JPO in
response to the final report.


D. Ineffective Quality Assurance Organization
           JPO’s quality assurance organization did not have the appropriate
           resources and authority to effectively manage DoD’s largest
           acquisition program. The lack of a strong and effective quality
           assurance organization contributed to the program’s cost,
           schedule, and performance issues.

DoDD 5000.01, “The Defense Acquisition System,” designates authority and responsibility
to the program manager within JPO to accomplish program objectives for development,
production, and sustainment to ensure that reliable systems are delivered to the
warfighter. DoDD 5000.01 goes on to state that the program manager, “shall be the single




                                                                                       DODIG-2013-140 │ 65
Overall Findings and Recommendations



                 point of accountability for accomplishing program objectives for total life-cycle systems
                 management.” As evidenced by our assessment that identified 363 findings, JPO appeared
                 to rely on Lockheed Martin and DCMA to identify, report, and address quality assurance
                 issues. This indicates a lack of quality assurance and technical expertise within JPO to
                 recognize F-35 supply chain issues.

                 Furthermore, the Lockheed Martin Aeronautics quality assurance leadership team
                 reports to the Lockheed Martin Aeronautics operations leadership team and does not
                 have the organizational independence or inherent authority to enforce quality assurance
                 internally and throughout the F-35 supply chain. It should be noted that Lockheed Martin
                 Space Division has an independent quality assurance organization that does not report
                 to operations.


                 Recommendation D—Management Comments and
                 Our Response
                 We recommend that the Joint Program Office establish an independent quality
                 assurance organization, which has the authority and resources to enforce the
                 AS9100 standard and F-35 product quality.


                 Joint Program Office Comments
                 JPO disagreed with the recommendation. JPO stated:

                            JPO acknowledges opportunities to improve management of
                            Quality performance and the benefits of realignment within
                            the F-35 Program organizational structure to better support
                            transition from Low Rate Initial Production to Full Rate
                            Production.    These efforts have commenced to include an
                            increase in resources and realignment of the Quality Team
                            to report to program leadership. The JPO non-concurs with
                            establishing an independent quality assurance organization.
                            DCMA performs the role of the independent quality
                            assurance organization for the F-35 and other DoD programs.
                            DCMA conducts process surveillance against the AS9100
                            standard and enforces F-35 product quality requirements.
                            Additionally, the JPO Quality Team is staffed from two
                            independent organizations; Air Force Life Cycle Management




66 │ DODIG-2013-140
                                                             Overall Findings and Recommendations



            Center (AFLCMC) and Naval Air Systems Command (NAVAIR).
            While serving on the JPO Quality Team, these individuals
            retain their responsibility to invoke their independent
            AFLMC and NAVAIR leadership in the event the JPO does not
            properly address quality concerns.


Our Response
We disagree with JPO’s approach because DCMA, AFLCMC, and NAVAIR are not
accountable for program quality assurance goals. In accordance with DoDD 5000.01,
section 3.5, the Program Manager has the responsibility for and authority to
accomplish program objectives for development, production, and sustainment to
meet the user’s operational needs.   Quality assurance is inherently a Government
program office’s responsibility. As evidenced by our findings, JPO did not enforce
F-35 product quality requirements. DCMA uses a “riskbased surveillance approach”
to apply resources across the DoD. Based on the findings from our assessment, DCMA
did not apply the appropriate resource throughout the supply chain. JPO must ensure
that Government resources are integrated into the program, efficiently applied, and
understand the system criticality of each aircraft component. It should also ensure
that design, test, and manufacturing issues are addressed with long-term, permanent
solutions. The DoD OIG seeks an effective quality assurance organization that meets
these expectations. Therefore, we request further comments from JPO in response to
the final report.


E. Ineffective DCMA Oversight
            DCMA was not performing quality assurance oversight
            commensurate with product criticality. Insufficient written
            direction from JPO coupled with inadequate execution from
            DCMA resulted in ineffective Government oversight of the
            F-35 Program.

In accordance with the F-35 Program memorandum of agreement, DCMA has
been delegated the responsibly of final acceptance of each production article. The
memorandum states “DCMA will issue LODs to support Contract Management Offices for
key JSF subcontractors as defined by DCMA and based on the analysis of subcontractor
performance data and risk.” In addition, DCMA will analyze contractor-earned value
data and provide an assessment of program risk based on cost, schedule, and technical




                                                                                    DODIG-2013-140 │ 67
Overall Findings and Recommendations



                 performance. DCMA will also maintain the Joint Surveillance Plan (between DCMA and
                 Lockheed Martin). The plan provides the details for accomplishing system surveillance
                 and maintenance.

                 Although there was a memorandum of agreement between JPO and DCMA, it was
                 inadequate for the complexity of the F-35 Program. The memorandum of agreement
                 did not provide any specifics to ensure adequate oversight of the F-35 supply chain.
                 DCMA Fort Worth did not issue letters of delegation to cognizant DCMA offices at key
                 F-35 suppliers based on the analysis of supplier performance data and risk. DCMA did
                 not consistently:

                          •	 develop or implement risk-based surveillance plans in accordance with
                            DCMA policies,

                          •	 participate in material review board activities,

                          •	 adequately conduct oversight activities, and

                          •	 identify and report oversight activities performed at lower tier suppliers.

                 Recommendation E—Management Comments and
                 Our Response
                 1. We recommend that the Joint Program Office:

                         a.	 Revise the Defense Contract Management Agency memorandum of
                            agreement to provide explicit surveillance criteria for mission-critical
                            hardware and software, to include, but not limited to, material review,
                            mandatory government inspection, process audit, product acceptance.

                 Joint Program Office Comments
                 JPO agreed and stated:

                            The Memorandum of Agreement (MOA), annex A-P, dated
                            February 2011, between the JPO and DCMA is being updated
                            to reflect Program objectives requiring DCMA support in the
                            following areas: Management of contractor Quality Process
                            implementation, control, maturity, and verification; Material
                            Review/Change Board Process authority and related task
                            requirements, Foreign Object Damage (FOD) management,
                            Government Flight Representative surveillance, Safety of




68 │ DODIG-2013-140
                                                                Overall Findings and Recommendations



           Flight inspection requirements, contractual Corrective Action
           Request notification, Air system acceptance (DD250), Supply
           Chain Management, etc.         However specific surveillance
           activities and priorities are articulated via other tools, such
           as Quality Assurance Letters of Inspection (QALI’s).

           It is important to note that the MOA update, though crucial in
           shaping organizational roles and responsibilities that address
           the findings in this report, is only part of the corrective action
           process being implemented.         Execution of DCMA policies,
           enhanced communication between the JPO and DCMA, and
           enhanced inter-DCMA communications with supplier DCMA
           organizations all play a role in improving surveillance. In
           addition to the MOA, DCMA utilizes risk based surveillance
           plans to support F-35 contracts. As part of the functional
           surveillance planning process, DCMA determines what types
           of surveillance techniques will be applied to ensure a supplier
           has adequate quality processes in place and meet all contractua
           lrequirements.        Risks are identified through historical
           knowledge of the suppliers systems and processes, results of
           surveillance execution, analysis of DCMA internal data, supplier
           data and customer data.


Our Response
The comments from JPO are responsive and the actions met the intent of
the recommendation.

        b.	 Ensure that Defense Contract Management Agency is performing quality
           assurance oversight commensurate with product criticality.

Joint Program Office Comments
JPO agreed and stated:

           DCMA has been, and continues to be, responsive to product
           criticality   while   performing   its   contact   administration
           quality assurance functions.         This includes optimizing
           quality assurance oversight of contractors’ critical processes,
           operations, and product. Product criticality is governed by




                                                                                     DODIG-2013-140 │ 69
Overall Findings and Recommendations



                             Federal Acquisition Regulation derived surveillance strategies.
                             FAR/DFAR regulatory requirements as manifest in F-35
                             contracts are also guided by DCMA policies. DCMA policies
                             define risk considerations and thresholds in developing
                             surveillance plans. Quality specialists determine what types of
                             surveillance techniques will be applied to ensure a supplier
                             has adequate quality processes in place. Surveillance activities
                             and data analysis allow DCMA to re-evaluate risk levels and
                             where appropriate adjust surveillance plans.

                             As non-conformance is identified, JPO may request special
                             surveillance be performed in other areas due to severity
                             or whether they are systematic in nature. This is captured
                             in other documents such as QALI’s.         The DCMA monthly
                             report also is a means of communicating quality assurance
                             oversight as it pertains to production status.        Continuous
                             communication between JPO and DCMA to discuss and resolve
                             quality issues is critical to meeting Program objectives.
                             Performing quality assurance in accordance with product
                             criticality is central to how DCMA conducts contract surveillance.


                 Our Response
                 The comments from JPO do not meet the recommendation intent. As evidenced by
                 the findings, DCMA is not providing sufficient supply chain oversight commensurate
                 with product criticality. The term “surveillance,” as defined in Federal Acquisition
                 Regulation (FAR) 42.11, is broad and does not specifically equate to government
                 verification or inspection of manufacturing processes or products. As an example,
                 the DCMA surveillance for a supplier could be nothing more than an itinerant DCMA
                 person visiting a particular supplier every six months with the visit entailing a brief
                 walk through of the facility. Therefore, it is our position that JPO’s quality assurance
                 organization should make the final decision on supplier risk, and the type and amount
                 of DCMA surveillance. We request further comments from the JPO in response to the
                 final report.




70 │ DODIG-2013-140
                                                                  Overall Findings and Recommendations



2. We recommend that the Defense Contract Management Agency:

        a.	 Provide a comprehensive quality assurance oversight plan for
           Joint Program Office approval to be included in the memorandum
           of agreement.

Defense Contract Management Agency Comments
DCMA partially agreed. DCMA stated:

           DCMA will ensure the MOA, as currently being updated,
           complements DCMA risk based surveillance planning.             The
           DMCA surveillance planning process is risk based and
           developed through historical knowledge of the suppliers
           systems and processes, results of surveillance execution,
           analysis   of    DCMA    internal   data,   supplier    data   and
           customer data.

           DCMA is also implementing a dedicated Supply Chain
           Management team at LMFW [Lockheed Martin, Fort Worth]
           to address the significant supply chain oversight challenge of
           the F-35 program. The focus of the team will be to evaluate
           LMFWs supply chain processes and system as well as a
           more focused emphasis on risk suppliers throughout the
           Supply Chain.


Our Response
The comments from DCMA do not meet the recommendation intent. As stipulated
in our E.1.b response, it is important for JPO’s quality assurance organization
to make the final decision on supplier risk and the type and amount of DCMA
oversight. A comprehensive quality assurance oversight plan would specifically
identify DCMA oversight for critical assemblies: inspection, verification, and
process proofing. Therefore, we request further comments from the DCMA in
response to the final report.

        b.	 Audit the execution of the quality assurance oversight plan throughout
           the F-35 supply chain.




                                                                                       DODIG-2013-140 │ 71
Overall Findings and Recommendations



                 Defense Contract Management Agency Comments
                 DCMA agreed and stated:

                           DCMA will comply with its quality assurance oversight plan.
                           Regular audits of supplier and prime DCMA organizations
                           are crucial to maximizing the effectiveness of risk based
                           surveillance. Within DCMA, Management Review Teams (MRT)
                           provide comprehensive functional reviews on our quality
                           program. These risk-based audit efforts, are conducted by
                           independent quality experts and occur throughout the entire
                           DCMA organization ensuring coverage of the F-35 supply chain.
                           Continued communication of audit results with our customers
                           and enhanced communication between DCMA supplier CMOs
                           will also supplement a robust audit process.


                 Our Response
                 The DCMA comments do not meet the recommendation intent. DCMA states they
                 will comply with its existing quality assurance oversight plan, which does not
                 appear to be the comprehensive F-35 quality assurance oversight plan sought in our
                 E.2.a recommendation. In addition, the DCMA audit and MRT process cited is not
                 new and as identified by our assessment was insufficient. Therefore, we request
                 further comments from the DCMA in response to the final report.




72 │ DODIG-2013-140
                                                                                              Appendixes




Appendix A
Scope and Methodology
We conducted this assessment from February 2012, through July 2013, in accordance
with the Council of the Inspectors General on Integrity and Efficiency, “Quality Standards
for Inspection and Evaluation.” Those standards require that we plan and perform the
assessment to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our assessment objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our assessment objectives.

To review the quality management system, our assessments focused on the following:

         •	 Applicable Statutory/regulatory requirements

         •	 Contractual quality management system (AS9100)

         •	 Contractual quantity clauses

         •	 Internal quality assurance processes and procedures

         •	 Software quality assurance process

         •	 Aviation CSI

Use of Technical Assistance
We used assistance from quality assurance engineers and quality assurance specialists
with a background in defense and aerospace systems. We established teams of subject
matter experts who assessed to the AS9100C Quality Management System standard.
The subject matter expert teams consisted of 14 to 18 quality assurance engineers,
trained and certified in AS9100, who had an average of 15 years of quality assurance,
audit experience. Additionally, our teams included subject matter experts in military
aviation CSI.




                                                                                         DODIG-2013-140 │ 73
Appendixes




                 Appendix B
                 Prior Coverage
                 During the last 5 years, the Government Accountability Office (GAO) and the
                 Department of Defense Inspector General (DoD IG) issued 26 reports discussing
                 F-35 Joint Strike Fighter. Unrestricted GAO reports can be accessed over the
                 Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
                 http://www.dodig.mil/pubs/index.cfm.


                 GAO
                 Report No. GAO-13-690T, “F-35 Joint Strike Fighter: Restructuring Has Improved the
                 Program, but Affordability Challenges and Other Risks Remain,” June 19, 2013

                 Report No. GAO-13-294SP, “Defense Acquisitions: Assessments of Selected Weapon
                 Programs,” March 28, 2013

                 Report No. GAO-13-309, “F-35 Joint Strike Fighter: Current Outlook Is Improved, but
                 Long-Term Affordability Is a Major Concern,” March 11, 2013

                 Report No. GAO-12-437, “Joint Strike Fighter: DOD Actions Needed to Further Enhance
                 Restructuring and Address Affordability Risks,” June 14, 2012

                 Report No. GAO-12-400SP, “Defense Acquisitions: Assessments of Selected Weapon
                 Programs,” March 29, 2012

                 Report No. GAO-12-525T, “Joint Strike Fighter: Restructuring Added Resources and
                 Reduced Risk, but Concurrency Is Still a Major Concern,” March 20, 2012

                 Report No. GAO-11-903R, “Joint Strike Fighter: Implications of Program Restructuring
                 and Other Recent Developments on Key Aspects of DOD’s Prior Alternate Engine
                 Analyses,” September 14, 2011

                 Report No. GAO-11-677T, “Joint Strike Fighter: Restructuring Places Program on Firmer
                 Footing, but Progress Is Still Lagging,” May 19, 2011

                 Report No. GAO-11-325, “Joint Strike Fighter: Restructuring Places Program on Firmer
                 Footing, but Progress Still Lags,” April 7, 2011




74 │ DODIG-2013-140
                                                                                            Appendixes



Report No. GAO-11-450T, “Joint Strike Fighter: Restructuring Should Improve Outcomes,
but Progress Is Still Lagging Overall,” March 15, 2011

Report No. GAO-11-323R, “Tactical Aircraft: Air Force Fighter Force Structure Reports
Generally Addressed Congressional Mandates, but Reflected Dated Plans and Guidance,
and Limited Analyses,” February 24, 2011

Report No. GAO-11-171R, “Defense Management: DOD Needs to Monitor and Assess
Corrective Actions Resulting from Its Corrosion Study of the F-35 Joint Strike Fighter,”
December 16, 2010

Report No. GAO 10-1020R, “Joint Strike Fighter: Assessment of DOD’s Funding Projection
for the F136 Alternate Engine,” September 15, 2010

Report No. GAO-10-789, “Tactical Aircraft: DOD’s Ability to Meet Future Requirements
is Uncertain, with Key Analyses Needed to Inform Upcoming Investment Decisions,”
July 29, 2010

Report No. GAO-10-388SP, “Defense Acquisitions: Assessments of Selected Weapon
Programs,” March 30, 2010

Report No. GAO-10-478T, “Joint Strike Fighter: Significant Challenges and Decisions
Ahead,” March 24, 2010

Report No. GAO-10-382, “Joint Strike Fighter: Additional Costs and Delays Risk Not
Meeting Warfighter Requirements on Time,” March 19, 2010

Report No. GAO-10-520T, “Joint Strike Fighter: Significant Challenges Remain as DOD
Restructures Program,” March 11, 2010

Report No. GAO-09-711T, “Joint Strike Fighter: Strong Risk Management Essential as
Program Enters Most Challenging Phase,” May 20, 2009

Report No. GAO-09-326SP, “Defense Acquisitions: Assessments of Selected Weapon
Programs,” March 30, 2009

Report No. GAO-09-303, “Joint Strike Fighter: Accelerating Procurement before
Completing Development Increases the Government’s Financial Risk,” March 12, 2009




                                                                                       DODIG-2013-140 │ 75
Appendixes



                 Report No. GAO-08-782T, “Defense Acquisitions: Better Weapon Program Outcomes
                 Require Discipline, Accountability, and Fundamental Changes in the Acquisition
                 Environment,” June 3, 2008

                 Report No. GAO-08-467SP, “Defense Acquisitions: Assessments of Selected Weapon
                 Programs,” March 31, 2008

                 Report No. GAO-08-569T, “Joint Strike Fighter: Impact of Recent Decisions on Program
                 Risks,” March 11, 2008

                 Report No. GAO-08-388, “Joint Strike Fighter: Recent Decisions by DOD Add to Program
                 Risks,” March 11, 2008


                 DoD IG
                 Report No. DODIG-2013-031, “Audit of the F-35 Lightning II Autonomic Logistics
                 Information System (ALIS),” December 10, 2012




76 │ DODIG-2013-140
                                                                                                              Appendixes




Appendix C
Notices of Concern and JPO Responses
NOC Lockheed Martin


                                          INSPECTOR GENERAL
                                           DEPARTMENT OF DEFENSE
                                           4800 MARK CENTER DRIVE
                                        ALEXANDRIA, VIRGINIA 22350-1500




      MEMORANDUM FOR PROGRAM EXECUTIVE OFFICE JOINT STRIKE FIGHTER

      SUBJECT: Notice of Concern–Quality Assurance Assessment of the F-35 Program
                 (Project No. D2012-DT0TAD-0003)

             We are issuing this Notice of Concern (NOC) to inform you that the Department of
      Defense, Inspector General (DoD IG) team identified issues that require your attention. During
      the Quality Assurance assessment1 of the F-35 program at Lockheed Martin Aeronautics (LMA),
      Fort Worth, Texas, from March 26, 2012 to April 6, 2012, the team identified 70 findings, 29 of
      which we consider to be major (systemic) and 41 to be minor.

             We sorted the findings into six broad categories: Document Control, Risk Management,
      Process Discipline, Process Proofing, Foreign Object Debris (FOD), and Critical Safety Items
      (CSI). Our assessment of each of these areas is as follows:
          Document and configuration control is weak and needs management attention.
          Risk management needs to be handled upfront programmatically and technically.
          Process discipline is lacking in many areas reviewed by the team.
          Production processes have not been thoroughly proofed.
          FOD discipline is lacking and requires major cultural changes.
          CSI Development needs immediate and complete implementation.

              On average, at final assembly each aircraft has 200+ corrective actions requiring rework
      or repair. The DoD IG team’s overall conclusion is that LMA’s, Fort Worth, Texas quality
      management system and the integrity of the F-35 product are jeopardized by a lack of attention
      to detail, inadequate process discipline, and a “we will catch it later” culture. We believe the
      quality assurance culture at LMA, Fort Worth, Texas must improve and that robust technical
      oversight by the government is required to ensure program performance and mission success.

             Our findings are attached to this memorandum for your review and comment.
      DoD Directive 7650.3 requires that recommendations be resolved promptly. Please provide
      comments that state whether you agree or disagree with the findings and recommendations. If
      you agree with our recommendations, describe what actions you have taken or plan to take to
      accomplish the recommendations and include the completion dates of your actions. If you
      disagree with the recommendations or any part of them, please give specific reasons why you
      disagree and propose alternative action if appropriate. Once we complete our five assessments,

      1
        The assessment was conducted in accordance with the Council of the Inspector General on
      Integrity and Efficiency (CIGIE) Quality Standards for Inspection and Evaluation and guidance
      in AS9101, Quality Management Systems Audit Requirements for Aviation, Space, and Defense
      Organizations.




                                                                                                         DODIG-2013-140 │ 77
Appendixes



                 NOC Lockheed Martin (cont’d)




78 │ DODIG-2013-140
                                           Appendixes



JPO Response to NOC Lockheed Martin




                                      DODIG-2013-140 │ 79
Appendixes



                 JPO Response to NOC Lockheed Martin (cont’d)




80 │ DODIG-2013-140
                                                    Appendixes



JPO Response to NOC Lockheed Martin (cont’d)




                                               DODIG-2013-140 │ 81
Appendixes



                 JPO Response to NOC Lockheed Martin (cont’d)




82 │ DODIG-2013-140
                            Appendixes



NOC Northrop Grumman




                       DODIG-2013-140 │ 83
Appendixes



                 NOC Northrop Grumman (cont’d)




84 │ DODIG-2013-140
                                            Appendixes



JPO Response to NOC Northrop Grumman




                                       DODIG-2013-140 │ 85
Appendixes



                 JPO Response to NOC Northrop Grumman (cont’d)




86 │ DODIG-2013-140
                                                     Appendixes



JPO Response to NOC Northrop Grumman (cont’d)




                                                DODIG-2013-140 │ 87
Appendixes



                 NOC L-3 Communications




88 │ DODIG-2013-140
                                       Appendixes



NOC L-3 Communications (cont’d)




                                  DODIG-2013-140 │ 89
Appendixes



                 JPO Response to NOC L-3 Communications




90 │ DODIG-2013-140
                                                       Appendixes



JPO Response to NOC L-3 Communications (cont’d)




                                                  DODIG-2013-140 │ 91
Appendixes



                 JPO Response to NOC L-3 Communications (cont’d)




92 │ DODIG-2013-140
                                                       Appendixes



JPO Response to NOC L-3 Communications (cont’d)




                                                  DODIG-2013-140 │ 93
Appendixes



                 NOC Honeywell - Phoenix, AZ




94 │ DODIG-2013-140
                                                   Appendixes



JPO Response to NOC Honeywell - Phoenix, AZ




                                              DODIG-2013-140 │ 95
Appendixes



                 JPO Response to NOC Honeywell - Phoenix, AZ (cont’d)




96 │ DODIG-2013-140
                       Appendixes



NOC BAE Systems




                  DODIG-2013-140 │ 97
Appendixes



                 NOC BAE Systems (cont’d)




98 │ DODIG-2013-140
                                       Appendixes



JPO Response to NOC BAE Systems




                                  DODIG-2013-140 │ 99
Appendixes



                 JPO Response to NOC BAE Systems (cont’d)




100 │ DODIG-2013-140
                                                 Appendixes



JPO Response to NOC BAE Systems (cont’d)




                                           DODIG-2013-140 │ 101
Appendixes



                 JPO Response to NOC BAE Systems (cont’d)




102 │ DODIG-2013-140
                           Appendixes



NOC Honeywell - UK




                     DODIG-2013-140 │ 103
Appendixes



                 NOC Honeywell - UK (cont’d)




104 │ DODIG-2013-140
                                           Appendixes



JPO Response to NOC Honeywell - UK




                                     DODIG-2013-140 │ 105
Appendixes



                 JPO Response to NOC Honeywell - UK (cont’d)




106 │ DODIG-2013-140
                 Appendixes



NOC UTAS




           DODIG-2013-140 │ 107
Appendixes



                 NOC UTAS (cont’d)




108 │ DODIG-2013-140
                                 Appendixes



JPO Response to NOC UTAS




                           DODIG-2013-140 │ 109
Appendixes



                 JPO Response to NOC UTAS (cont’d)




110 │ DODIG-2013-140
                                          Appendixes



JPO Response to NOC UTAS (cont’d)




                                    DODIG-2013-140 │ 111
Appendixes




                 Appendix D
                 F-35 Joint Program Office and Defense Contract
                 Management Agency Comments




112 │ DODIG-2013-140
                                                              Appendixes



F-35 Joint Program Office and Defense Contract Management
Agency Comments (cont’d)




                                                        DODIG-2013-140 │ 113
Appendixes



                  F-35 Joint Program Office and Defense Contract Management
                  Agency Comments (cont’d)


                                          DEFENSE CONTRACT MANAGEMENT AGENCY
                                                       3901 A Avenue, Building 10500
                                                         Fort Lee, VIRGINIA 23801




                                                                                                 August 29, 2013

                       MEMORANDUM FOR DEPARTMENT OF DEFENSE, INSPECTOR GENERAL, AUDIT
                                       POLICY AND OVERSIGHT

                       SUBJECT: Draft Report Quality Assurance Assessment of the F-35 Lightning II Program
                       (Project No. D2012-DTOTAD-0003.000) dated August 5, 2013

                       Reference: DoDIG Draft Report Project No. D2012-DTOTAD-0003

                              We have attached the Headquarters, Defense Contract Management Agency’s comments
                       and documentation as requested.

                              The Point of contact for this our response is Col Stathopoulos at (817) 763-4422 or
                       Alex.Stathopoulos@dcma.mil.




                       Attachment:
                       As stated




114 │ DODIG-2013-140
                                                              Appendixes



F-35 Joint Program Office and Defense Contract Management
Agency Comments (cont’d)




                                                        DODIG-2013-140 │ 115
Appendixes



                 F-35 Joint Program Office and Defense Contract Management
                 Agency Comments (cont’d)




116 │ DODIG-2013-140
                                                              Appendixes



F-35 Joint Program Office and Defense Contract Management
Agency Comments (cont’d)




                                                        DODIG-2013-140 │ 117
Appendixes



                 F-35 Joint Program Office and Defense Contract Management
                 Agency Comments (cont’d)




118 │ DODIG-2013-140
                                                              Appendixes



F-35 Joint Program Office and Defense Contract Management
Agency Comments (cont’d)




                                                        DODIG-2013-140 │ 119
Appendixes



                 F-35 Joint Program Office and Defense Contract Management
                 Agency Comments (cont’d)




120 │ DODIG-2013-140
                                                              Appendixes



F-35 Joint Program Office and Defense Contract Management
Agency Comments (cont’d)




                                                        DODIG-2013-140 │ 121
Appendixes



                 F-35 Joint Program Office and Defense Contract Management
                 Agency Comments (cont’d)




122 │ DODIG-2013-140
                                                              Appendixes



F-35 Joint Program Office and Defense Contract Management
Agency Comments (cont’d)




                                                        DODIG-2013-140 │ 123
Appendixes



                 F-35 Joint Program Office and Defense Contract Management
                 Agency Comments (cont’d)




124 │ DODIG-2013-140
                                                                   Acronyms and Abbreviations




Acronyms and Abbreviations
  ANSI American National Standards Institute
     AS Aerospace Standard
   ATP Acceptance Test Procedure
   BOS Back-Up Oxygen System
   CAR Corrective Action Request
   CDR Critical Design Review
    CSI Critical Safety Item
  CTOL Conventional Takeoff and Landing
    CV Carrier-Suitable Variant
 DCMA Defense Contract Management Agency
DMSMS Diminishing Manufacturing Sources and Material Shortages
DOORS Dynamic Object Oriented Requirements System
    DU Display Unit
   EMI Electromagnetic Interference
   ESD Electrostatic Discharge
    EU Electronics Unit
    FAI First Article Inspection
FMECA Failure Modes, Effects, and Criticality Analysis
   FOD Foreign Object Debris
FRACAS Failure Reporting, Analysis, and Corrective Action System
    ICD Interface Control Document
    IEC International Electrotechnical Commission
    IPT Integrated Product Team
    ISO International Organization for Standardization
  JACG Joint Aeronautical Commanders Group
   JPO Joint Program Office
    JSF Joint Strike Fighter
   LOD Letter of Delegation
   LRIP Low-Rate Initial Production
  LSLM Limited Shelf-Life Materials
   NOC Notice of Concern
OBOGS On-Board Oxygen Generation System
    OFI Opportunity for Improvement
   OIG Office of Inspector General
   PCD Panoramic Cockpit Display
   PDR Preliminary Design Review




                                                                             DODIG-2013-140 │ 125
Acronyms and Abbreviations



                         QN Quality Notifications
                         SDD Software Design Document
                         SDP Software Development Plan
                        SOW Statement of Work
                         SRS Software Requirements Specification
                       STOVL Short Takeoff and Vertical Landing
                       SVDD Software Version Description
                        UTAS United Technology Aerospace Systems
                        VDD Version Description Document




126 │ DODIG-2013-140
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
